<html>
<title> - NOMINATION OF PETER V. NEFFENGER TO BE ASSISTANT SECRETARY OF THE U.S. DEPARTMENT OF HOMELAND SECURITY AND ADMINISTRATOR FOR THE TRANSPORTATION SECURITY ADMINISTRATION</title>
<body><pre>[Senate Hearing 114-288]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-288

                    NOMINATION OF PETER V. NEFFENGER
                    TO BE ASSISTANT SECRETARY OF THE
                  U.S. DEPARTMENT OF HOMELAND SECURITY
                       AND ADMINISTRATOR FOR THE
                 TRANSPORTATION SECURITY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-553 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2015.....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     4
    Prepared statement...........................................     4
Statement of Senator Blumenthal..................................    26
Statement of Senator Klobuchar...................................    28
Statement of Senator Sullivan....................................    34

                               Witnesses

Hon. Janice Hahn, U.S. Representative from California............     2
Peter Vance Neffenger, Vice Commandant, United States Coast Guard     5
    Prepared statement...........................................     7
    Biographical information.....................................     9

                                Appendix

Response to written questions submitted to Vice Admiral Peter V. 
  Neffenger by:
    Hon. John Thune..............................................    39
    Hon. Roy Blunt...............................................    42
    Hon. Steve Daines............................................    42
    Hon. Richard Blumenthal......................................    43

 
                    NOMINATION OF PETER V. NEFFENGER
                    TO BE ASSISTANT SECRETARY OF THE
                  U.S. DEPARTMENT OF HOMELAND SECURITY
                       AND ADMINISTRATOR FOR THE
                 TRANSPORTATION SECURITY ADMINISTRATION

                              ----------                              


                         THURSDAY, MAY 21, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Sullivan, Nelson, 
Klobuchar, and Blumenthal.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This nomination hearing will come to order. I 
apologize to our nominee for the tardy start. We had some 
things going on on the floor, some business we were trying to 
take care of over there. We are delighted to have you with us 
today.
    Today, we are going to consider the nomination of Vice 
Admiral Peter Neffenger to be the next Administrator of the 
Transportation Security Administration. The TSA Administrator 
position has been vacant since last December when John Pistole 
resigned.
    In January, I along with Ranking Member Nelson, Senators 
Ayotte, Cantwell, and Fischer called on President Obama to send 
us a qualified, experienced, and dedicated individual to serve 
as TSA Administrator.
    Late last month, Admiral Neffenger was nominated by the 
President to head this important agency, which has been without 
Senate confirmed leadership for too long.
    While disappointed at the length of time it took the 
President to send us a qualified nominee, I am encouraged by 
Admiral Neffenger due to his qualifications and service to our 
country.
    Admiral Neffenger currently serves as the Vice Commandant 
of the United States Coast Guard. He has had a long and 
distinguished career, serving over 33 years in a wide range of 
positions, each with more responsibility and importance than 
the last.
    During an assignment in Mobile, Alabama, he helped to lead 
the multi-agency response to the 1993 Amtrak Sunset Limited 
train derailment into a remote waterway in the Mobile River 
Delta which killed 47 people. This is a particularly 
significant experience in light of last week's tragic Amtrak 
derailment in Philadelphia.
    Admiral Neffenger also has substantial experience serving 
right here in the Senate, having been a Coast Guard Fellow and 
Detailee for 2 years at the Senate Appropriations Committee.
    As some of my colleagues from the Gulf Coast can attest, 
Admiral Neffenger also served as Deputy National Incident 
Commander for the Deepwater Horizon oil spill. In that role, 
Admiral Neffenger coordinated and led over 50,000 people from 
Federal, state, and local agencies, tribal representatives, 
non-governmental organizations, and the private sector 
throughout five Gulf Coast states in the clean-up and response 
effort.
    Admiral Neffenger has proven himself as a leader, and the 
TSA is an agency in need of strong leadership. Former 
Administrator Pistole deserves credit for improving the 
agency's use of risk-based approaches to security and 
implementing programs to streamline the screening of travelers 
who pose little or no threat to the public.
    At the same time, just last week, the Department of 
Homeland Security's Inspector General testified in the House, 
and I quote, ``Unfortunately, although nearly 14 years have 
passed since TSA's inception, the IG's Office remains deeply 
concerned about its ability to execute its important mission.''
    That is unusually blunt testimony from a government witness 
and underscores the need to get a qualified and capable leader 
in place at TSA, especially with the evolving security threats 
our Nation faces.
    This committee will do its part to make that happen. I look 
forward to a meaningful exchange with Admiral Neffenger today, 
as well as written questions for the record following today's 
hearing. Then if members are satisfied with the nominee's 
responses, we will likely hold a markup to consider the 
nomination during our first week back after the Memorial Day 
recess.
    That will be followed by a previously agreed upon referral 
to the Senate Homeland Security and Governmental Affairs 
Committee, as has been done for the last several nominees to 
head the TSA.
    I look forward to working with Chairman Johnson who is also 
a valued member of this committee, to ensure timely 
consideration of this nomination. In both settings, as well as 
in personal meetings with senators, Admiral Neffenger will have 
a chance to address important policy issues and how he will 
address the challenges facing TSA if confirmed.
    With that, I want to get us going here. Our Ranking Member, 
Senator Nelson, I assume will be here momentarily, but in his 
absence, we will proceed. We have with us today Representative 
Janice Hahn, who is here to introduce her nominee.
    Congresswoman Hahn, very nice to have you here, welcome, 
and please proceed.

                STATEMENT OF HON. JANICE HAHN, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Ms. Hahn. Thank you very much, Chairman Thune. It is very 
good to be with you today. Mr. Chairman, I appreciate being 
invited to speak in support of the nomination of Peter 
Neffenger to be the Administrator of the Transportation 
Security Administration.
    I understand the importance of the TSA at a time when our 
nation continues to face potential attacks on our homeland, and 
therefore, the need for an Administrator who has demonstrated 
the highest standards of excellence and leadership in previous 
roles.
    I wholeheartedly and enthusiastically support Vice Admiral 
Neffenger for this position.
    As the Commander of the Coast Guard's sector, Los Angeles/
Long Beach, the largest port complex in the country, Vice 
Admiral Neffenger simultaneously served as the captain of the 
port and Federal Maritime Security Coordinator, when I was on 
the Los Angeles City Council and represented the port at that 
time.
    Peter and I worked closely together on port security in the 
years following the tragic terrorist attacks of 9/11. Before 9/
11, the Federal Government did not have an agency or 
administration specifically responsible for securing our 
transportation systems.
    As you know, this very committee created TSA, which now has 
the role of securing our transportation system while ensuring 
the free flow of goods and services.
    Ranking Member Nelson, good to see you.
    Vice Admiral Neffenger has the right experience and 
abilities to implement TSA's mission as demonstrated by his 
professional and personal qualifications.
    Over the years, I have found him also to be very even 
keeled. I think this is crucial for the person at the helm of 
our Nation's transportation security. We need a person in 
charge who can decide with Congress where limited resources 
should be spent, and to balance security and commerce, while at 
the same time protecting America's public.
    Since I have come to serve in Congress as a representative 
of our Nation's largest port complex and the co-founder and co-
chair of the Port Caucus in the House of Representatives, Vice 
Admiral Neffenger has continued to brief me about security at 
our Nation's port, and to be a resource for me on port 
security.
    I think the President has selected the right person to lead 
our Nation's Transportation Security Administration. Vice 
Admiral Neffenger brings the right set of experiences to TSA, 
his qualifications are exemplary. His knowledge, his character, 
and his strategic thinking are first rate.
    His unique experiences, which are broader than aviation, 
will help TSA complete its mission of protecting the nation's 
transportation system, to ensure freedom of movement for people 
and commerce.
    Our ports, I think, are still a vulnerable part of our 
transportation system, and I can see the Port of Los Angeles 
from my backyard, and that security gap sometimes keeps me 
awake at night. That is why I think more than ever we need 
someone with Vice Admiral Neffenger's background, that 
understands and knows our ports as well as the entire 
transportation system.
    Knowing that such a highly qualified person is protecting 
our Nation's transportation system will give us all great 
comfort and confidence. I urge you to confirm his nomination. 
Thank you so much for letting me be here.
    The Chairman. Thank you, Congresswoman Hahn, very much for 
that testimonial. I am certain that our nominee very much 
appreciates those great words, and we appreciate you coming 
over. Thank you for being here and for sharing that with us.
    Senator Nelson is here, and I am going to turn to him 
before we turn to Vice Admiral Neffenger, and let him make his 
opening remarks. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Congresswoman, thank you for your comments, 
and in the interest of time, since we have had the delay 
because of the trade vote, I will submit my statement for the 
record.
    Let me just say that the Admiral worked very hard in a 
major disaster that we had, the oil spill at Deepwater Horizon 
in the Gulf, that has had such long lasting effects. He 
obviously is skilled. He is obviously experienced with his 34 
years, and he takes over an agency that if we make a mistake, 
it could be fatal, and we need strong leadership.
    If you look at some of the vulnerabilities in the airports, 
last December they discovered for a 6-month period people were 
getting on airplanes in the Atlanta Airport and transporting 
guns on commercial airliners to New York, over a 6-month 
period. It is unacceptable.
    Just this past week, the Secretary talked about a drug 
running gang in California among baggage handlers. It is 
unacceptable.
    Admiral, you have a real job, and we appreciate you 
offering yourself for your continued public service.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you Admiral Neffenger for joining us today to discuss your 
nomination to be the next Administrator of the Transportation Security 
Administration. And I want to thank you for your continued public 
service.
    We've worked together in the past on the response to one of the 
Nation's worst environmental disasters ever, the Deepwater Horizon oil 
spill in the Gulf of Mexico, where you played an important leadership 
role as the Deputy National Incident Commander.
    I expect that your 34 years of service with the Coast Guard has 
prepared you to lead TSA in its critical, 24/7 security mission.
    As you know, TSA is tasked with protecting our transportation 
systems and the traveling public, while also ensuring the flow of 
commerce. Though TSA is most visible to the public at 450 commercial 
airports across the nation, the agency's security responsibilities cut 
across all modes of transportation; including transit, railroads, 
pipelines, and maritime.
    As threats to our transportation systems evolve, TSA must respond 
to meet new challenges and anticipate future risk.
    For instance, last December it was discovered that a few employees 
at the Atlanta Airport had developed a scheme that exploited the 
limited screening of employees at that airport to transport guns to New 
York onboard commercial airplanes.
    Earlier this week, Homeland Security Secretary Johnson announced 
that baggage handlers in Oakland are being charged with illegally 
transporting drugs. It appears these individuals used the same scheme 
as in Atlanta.
    The employees in both cases used their secure access badges to 
bring contraband into the sterile area of the airport, then transferred 
the drugs or guns to a passenger on an outboard flight, who had already 
passed through TSA security.
    In both Atlanta and Oakland, these were criminals and not 
terrorists, but this is exactly what we are trying to prevent: weapons 
getting on airplanes.
    Secretary Johnson has directed TSA to implement recommendations 
made by the Aviation Security Advisory Committee, including steps to 
improve the screening and vetting of all airport-based employees.
    One of those recommendations is to reduce the number of secure area 
access points at airports and increase screening, as they did in 
Orlando and Miami years ago.
    There are also ways to improve passenger screening, and I hope that 
we can discuss ways to strengthen the TSA PreCheck program.
    Vice Admiral Neffenger, I look forward to hearing how you would 
approach these issues, and how your experience at the Coast Guard has 
prepared you to lead this 50,000 member workforce and protect our 
transportation networks.
    Thank you.

    The Chairman. Thank you, Senator Nelson. Admiral Neffenger, 
please proceed.

  STATEMENT OF PETER VANCE NEFFENGER, VICE COMMANDANT, UNITED 
                       STATES COAST GUARD

    Admiral Neffenger. Thank you, Chairman. I have a short 
opening statement, and I have a written statement for the 
record, with your permission.
    Good morning, Chairman Thune, Ranking Member Nelson, 
distinguished members of the Committee. I am deeply privileged 
to appear before you today as the President's nominee to head 
the Transportation Security Administration.
    I am honored by the President's call to serve in this 
important position and by the support of Secretary Jeh Johnson, 
who has provided strong leadership of our Department.
    I especially want to thank my friend, Representative Janice 
Hahn, who graciously gave up her time to introduce me today. I 
had the great privilege of working with her during my tenure as 
Commander of Coast Guard Sector Los Angeles/Long Beach.
    She directly helped me as we brought together leaders from 
industry, labor, government, first responder agencies, and the 
local community to tackle the daunting challenge of securing 
the ports of Los Angeles and Long Beach.
    This experience reinforced my belief in the critical 
importance of partnerships in protecting our nation's 
transportation systems. Thank you again, Janice. Thank you.
    I would also like to thank the 50,000 men and women of the 
United States Coast Guard and the 30,000 members of the 
volunteer Coast Guard Auxiliary, with whom I have been 
privileged to serve for more than three decades, and from whom 
I have learned important lessons about leadership and about 
service to the nation, commitment to excellence, and duty to 
people, and to the dedicated men and women of TSA, I want you 
to know that I am deeply honored to potentially join your ranks 
and to serve with you and the American people in securing our 
Nation's transportation systems.
    During my nearly 34 years of active service, I have been 
assigned to a broad variety of operational, staff, and 
leadership positions culminating in my current duties as Vice 
Commandant and second in command of the Coast Guard, the 
nation's fifth armed service, and its premiere maritime law 
enforcement agency.
    Each assignment has brought greater and more complex 
responsibilities and challenges, and if confirmed, I will apply 
the leadership skills I have gained as well as my extensive 
experience in law enforcement, maritime transportation 
security, and management of a large complex agency to ensure 
the protection of our nation's transportation systems.
    Nearly 14 years after 9/11, we must recognize that the 
global terrorist threat has evolved. Today, this threat is more 
decentralized, more diffuse, and more complex. Certain 
terrorist groups remain intent on striking the United States 
and the West, and we know that some of these groups are focused 
on commercial aviation.
    Moreover, we see a growing threat. The threats are 
persistent and evolving, and they are TSA's most pressing 
challenge.
    Workforce training, retention, and accountability are a 
second challenge facing TSA. If confirmed, I will pay close 
attention to the development of the TSA work force. I will 
examine how to use the TSA Academy established by John Pistole 
to further improve performance and to instill an ever greater 
sense of pride in the agency and its critically important 
mission.
    I will continue to focus on customer service. Travelers 
expect efficient and effective screening, and they deserve to 
be treated with respect.
    A third challenge is ensuring that TSA continually fields 
the tools it needs to address the persistent and evolving 
terrorist threat. We must question ourselves. We must evolve 
our capabilities. We must adapt faster than those who wish to 
harm us. We must envision what comes next and direct 
investments appropriately.
    As such, if confirmed, I will commit myself to ensuring 
that TSA remains a high performing, highly capable 
counterterrorism organization guided by a risk based strategy, 
that TSA employs multi-layered intelligence driven operations, 
that TSA recruits and retains a skilled and highly trained 
workforce while placing a premium on professional values and 
individual accountability.
    That TSA pursues advanced capabilities with adaptation 
central to its acquisition strategy, and that TSA continues to 
strengthen its integration in the intelligence community, with 
the private sector, with its stakeholders, and among Federal, 
state, and local partners.
    If confirmed, I will follow this strategy, engage and lead 
the workforce, and adapt and invest appropriately.
    I believe I have a proven record of leading people and 
carrying out complex missions. I have an extensive background 
in applying risk based security principles to port operations 
and maritime threats, principles that translate effectively and 
directly to other transportation modes. I have a proven record 
of leading through crises.
    Finally, throughout my career, I have remained aware of the 
need to balance desires for greater security with the 
protection of the liberties and rights we cherish. If 
confirmed, safeguarding civil liberties and privacy interests 
of all Americans will remain a top priority.
    I look forward to partnering with this committee on a range 
of initiatives to enhance the safety of the traveling public, 
and to achieve this balance.
    In closing, I again thank President Obama and Secretary 
Johnson for their confidence in my ability.
    Mr. Chairman, Ranking Member Nelson, thank you for the 
opportunity to appear before you today, and I look forward to 
answering your questions.
    [The prepared statement and biographical information of 
Admiral Neffenger follow:]

  Prepared Statement of Vice Admiral Peter V. Neffenger, Nominee for 
Administrator, Transportation Security Administration, U.S. Department 
                          of Homeland Security
    Good morning Chairman Thune, Ranking Member Nelson, and 
distinguished Members of the Committee. I am deeply privileged to 
appear before you today as the President's nominee to head the 
Transportation Security Administration (TSA). I am honored by the 
President's call to serve our Nation in this important leadership 
position and by the support of Secretary Jeh Johnson, who has provided 
strong and inspired leadership to the Department of Homeland Security.
    With your indulgence, I would like to express my sincere 
appreciation to my fellow members of the United States Coast Guard, 
with whom I served for more than three decades of my professional life 
and from whom I have learned many lessons on leadership. They were and 
are always ready--to protect the maritime economy and the environment, 
to defend our maritime borders, and to save those in peril. They have 
inspired my service and I am eternally grateful for the opportunity to 
have worked alongside them and to have led them as they safeguard our 
maritime interests in the heartland, at the ports, at sea, and around 
the globe. And to the men and women of TSA, I want them to know how 
deeply honored I am to potentially join their ranks and to serve them 
and the American people in securing our Nation's transportation 
systems.
    If confirmed for the position to which I have been nominated, it 
would be my privilege to follow in the footsteps of my longtime mentor 
and one of TSA's first Administrators, Admiral James Loy, who was the 
Coast Guard Commandant from 1998 to 2002 and TSA Administrator from 
2002 to 2003. I have been similarly privileged to serve our Nation as a 
senior commissioned officer in the United States Coast Guard. During my 
nearly 34 years of active service, I have been assigned a broad variety 
of operational, staff and leadership positions culminating in my 
current duties as Vice Commandant and second in command of the Coast 
Guard; the Nation's fifth armed service and premier maritime law 
enforcement agency. Each successive assignment has brought greater and 
more complex responsibilities in executing the Coast Guard's mission to 
secure America's waters and to protect the country against maritime 
threats. If confirmed, I will have the opportunity to apply this 
leadership experience and my law enforcement and security skills to one 
of the most challenging jobs in our Nation; protecting our 
transportation systems--especially aviation--from terrorists.
    Since its creation after the attacks of 9/11/01, TSA has played an 
invaluable and pivotal role in securing our transportation systems from 
these threats. Still, more than thirteen years since, we face threats 
from terrorist groups around the world and from homegrown terrorists 
who are not affiliated with a particular network, but who, nonetheless 
are inspired by a message of hatred and violence. A persistent number 
of terrorist groups remain intent on striking the United States and the 
West, and we know that some of these groups are focused on commercial 
aviation. And, we must recognize that we have evolved to a new phase in 
the global terrorist threat. Today the terrorist threat is more 
decentralized, more diffuse, and more complex. And today's terrorists 
no longer build bombs in secret; they have now publicized their 
instruction manual and are calling for people to use it.
    These persistent threats are TSA's most pressing challenge. Our 
enemies will continually adapt, and so must we. TSA must leverage 
intelligence, technology, the experience of our front-line operators 
and our private sector partners to ensure we employ effective, 
efficient and ever-evolving procedures to stop those who would harm us. 
We should pay particular attention to the insider threat. I'm 
encouraged by the thoughtful recommendations provided by the Aviation 
Security Advisory Committee and, if confirmed, will commit to closely 
reviewing and pursuing the long-term enhancements recommended.
    Retention, training and accountability are a second significant 
challenge facing TSA. Front-line managers and screeners are critical to 
the success of TSA. Agency culture, morale and effectiveness are a 
direct result of consistent and career-long training, recognition and 
accountability. If confirmed, while we should further right-size our 
workforce consistent with the implementation of risk-based security 
principles, I will pay close attention to training and workforce 
development, to include how to leverage the TSA Academy to improve 
individual performance and to instill a greater sense of pride in the 
agency and its mission.
    A related challenge to address is customer service, which is a 
critical success factor. TSA interacts with millions of travelers each 
day--travelers who expect efficient and effective screening with 
minimal delay, and who deserve to be treated with respect. Through my 
current career, I have routinely interacted with the public and have 
learned that an organization must continually reinforce this message of 
dignity and respect in order to embed it into an agency culture.
    A third organizational challenge for TSA is ensuring it is 
continually fielding the tools and equipment the workforce needs to 
address this persistent and adaptive threat today, while envisioning 
longer term the investments necessary to recapitalize and modernize 
security of our Nation's transportation system.
    As such, if confirmed, I will commit myself to ensuring that TSA 
remains a high-performing, highly-capable counterterrorism organization 
that is guided by a risk-based strategy to prevent attacks and 
safeguard legitimate travel and commerce; that TSA employs a multi-
layered, intelligence-driven operation and one that discards a one-
size-fits-all approach; that TSA recruits and retains a highly-trained 
workforce, one that has the opportunity for career growth and 
development while placing a premium on professional values and 
individual accountability to high standards of performance and customer 
service; that TSA pursues advanced capabilities with innovation and 
adaptation central to its acquisition strategy to counter evolving 
threats; and that TSA will continue to invest in and strengthen its 
integration in the intelligence community, in the private sector, with 
its stakeholders, and among DHS, federal, state, and local partners. To 
protect aviation, mass transit, rail, highways, ports, and pipeline 
systems, I will follow this strategy, engage and lead the workforce, 
adapt and invest appropriately, and remain focused on these critical 
success factors.
    I have a proven record of leading people and carrying out complex 
missions and priorities. As Vice Commandant of the Coast Guard, I serve 
as the Vice Service Chief, Chief Operating Officer and Component 
Acquisition Executive responsible to train, equip and organize over 
50,000 men and women who keep our Nation's waters safe, secure and 
protected. I approve and certify acquisition programs of record for the 
Service, and oversee compliance with the Chief Financial Officer and 
Federal Financial Reform Act of 1990, with the Coast Guard achieving a 
clean audit opinion for two consecutive years. I currently serve as the 
senior authority for all resource requests and budget submissions for 
the Service. I have an extensive background in applying the strategic 
principles of security to port operations and maritime threats, 
principles that translate effectively to other transportation modes. I 
served as Commander of the Ninth Coast Guard District overseeing all 
Coast Guard operations on the Great Lakes and St. Lawrence Seaway and 
along the Northern Border with Canada. I also commanded Sector Los 
Angeles-Long Beach and served as the Federal Maritime Security 
Coordinator and Captain of the Port for the Nation's largest port 
complex in addition to leading Coast Guard operations throughout 
approximately 300 miles of California coast and coastal waters. In both 
commands, I worked closely with interagency and international partners, 
industry and the private sector, citizens groups and non-governmental 
organizations, and federal, state and local law enforcement to develop 
risk-based methods for screening vessels, cargo and people operating in 
our ports and waterways. I focused on determining highest risk commerce 
while facilitating legitimate activities. I also established one of the 
Nation's first interagency Area Maritime Security Committees which 
brought together leaders from industry, labor, government, first 
responder agencies and the local community to tackle the critical 
challenge of securing the vital Los Angeles and Long Beach ports and 
maritime approaches to the West Coast of the United States.
    In addition, I have a proven record of leading through crises. I 
served as Deputy National Incident Commander for the BP Deepwater 
Horizon Oil Spill in 2010 following the tragic explosion, the loss of 
eleven lives, and the sinking of the Deepwater Horizon Mobile Offshore 
Drilling Unit which precipitated the largest and longest oil spill in 
U.S. history. At the national level, I helped to ensure a coordinated, 
unified, whole-of-government effort to respond to the massive spill. I 
led over 50,000 people from federal, state and local agencies; tribal 
representatives; non-governmental organizations; and the private sector 
throughout five Gulf Coast states. I regularly briefed the President, 
Members of Congress, Cabinet Secretaries, state Governors and regional 
elected officials on progress and milestones, including appearing 
before Congressional Committees on multiple occasions.
    Finally, throughout my years of service I have remained aware of 
the need to balance desires for greater security with the protection of 
the liberties and rights we cherish as Americans. If confirmed, 
safeguarding the civil liberties and privacy interests of all Americans 
will remain a top priority. I look forward to partnering with this 
Committee on a range of initiatives to enhance the safety of the 
traveling public and to achieve this balance.
    I applaud the work the men and women of TSA perform each and every 
day, along with the outstanding work performed by Mel Carraway while he 
has served as Acting Administrator. It would be my great honor to join 
them and have the privilege of leading this team of committed patriots.
    In closing, I again thank President Obama and Secretary Johnson for 
their confidence and faith in my ability to lead TSA. Mr. Chairman, 
Ranking Member Nelson, I thank you for the opportunity to appear before 
you today and I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Peter Vance 
Neffenger.
    2. Position to which nominated: Assistant Secretary for Homeland 
Security, Transportation Security Administration.
    3. Date of Nomination: April 28, 2015.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Information not provided.

    5. Date and Place of Birth: August 21, 1955; Salem, OH.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Gail Rosemary Staba
        Place of Employment: Transportation Research Board, The 
        National Academy of Sciences, Washington, DC.
        Position: Senior Program Officer.
        No children.

    7. List all college and graduate degrees. Provide year and school 
attended.

        1977: Baldwin-Wallace University, Bachelor of Arts, Magna Cum 
        Laude, with distinction, in English.

        1986: Central Michigan University, Master of Arts in Business 
        Management 1995: Harvard University, Kennedy School of 
        Government, Master of Public Administration.

        2003: U.S. Naval War College, Master of Arts in National 
        Security & Strategic Studies, with distinction.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
Post-undergraduate employment:

        1977-78: Assistant to the Director, Betterway Inc (community-
        based corrections), Elyria, OH.

        1979-80: Student Affairs Consultant, AFS International, New 
        York, NY.

        1980-81: Director, English-in-Action (ESL program), New York, 
        NY.

        1981-Present: United States Coast Guard.
Management and Non-Managerial Positions:

        2014-Present: Vice Commandant, United States Coast Guard, 
        Washington, D.C.

        2012-2014: Deputy Commandant for Operations, United States 
        Coast Guard, Washington, D.C.

        Director of Strategic Management and Doctrine, United States 
        Coast Guard, Washington, D.C.

        2010 (May-Oct): Deputy National Incident Commander, BP 
        Deepwater Horizon Oil Spill Response.

        2008-2010: Commander, Ninth Coast Guard District, Cleveland, 
        OH.

        2006-2008:Chief, Office of Budget & Programs, USCG 
        Headquarters, Washington, D.C.

        2003-2006: Sector Commander, USCG Sector Los Angeles--Long 
        Beach, CA.

        2002-2003: Student, U.S. Naval War College, Newport, RI.

        1999-2002: Executive Officer, USCG Marine Safety Office San 
        Francisco Bay, CA.

        1997-1999: Fellow on detail to U.S. Senate Appropriations 
        Committee, Subcommittee on Transportation.

        1995-1997: Program Analyst, Office of Casualty Investigations, 
        USCG Headquarters, Washington, D.C.

        1994-1995: Student, Harvard University, Kennedy School of 
        Government, Cambridge, MA.

        1991-1994: Chief of Marine Inspection/Chief of Port Operations, 
        USCG Marine Safety Office, Mobile, AL.

        1989-1991: USCG Liaison Officer to the Territory of American 
        Samoa.

        1985-1989: Marine Inspector/Marine Investigator, USCG Marine 
        Safety Office, New Orleans, LA.

        1983-1985: Student Engineer, U.S. Coast Guard Cutter GALLATIN 
        (WHEC 721).

        1982-1983: Training Officer, Office of Reserve, Eighth Coast 
        Guard District, New Orleans, LA.

        1981-1982: USCG Officer Candidate School, Yorktown, VA.

        1980-1981: Director, English-in-Action (TESL program), New 
        York, NY.

        1979-1980: Student Affairs Consultant, AFS International, New 
        York, NY.

        1977-1978: Assistant to Director, Betterway, Inc. (community 
        based corrections), Elyria, OH.

    9. Attach a copy of your resume.
    My official Coast Guard biography and resume are attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years: None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        2002-2014: Member, Women's Transportation Seminar (WTS 
        International).

        2003-2006: Member, Propeller Club of the United States, Port of 
        Los Angeles-Long Beach.

        2003-2006: Member, Homeland Security Advisory Council, Los 
        Angeles, CA.

        2003-2006: Member, Advisory Board, International Trade 
        Education Programs, Los Angeles, CA.

        2005-present: Member, Pacific Council on International Policy.

        2008-2010: Member, City Club of Cleveland.

        2009-2010: Member, Cleveland Council on World Affairs.

        2013-present: Member, The Army and Navy Club, Washington, D.C.

    None of these organizations restricts membership on the basis of 
sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        National Honor Society

        F. E. Harris Scholarship, Baldwin-Wallace College

        Dayton C. Miller Honor Society, Baldwin-Wallace College

        USCG Foundation, Admiral James S. Gracey Award for 
        Professionalism

        U.S. Department of Justice Certificate of Appreciation for 
        assistance in prosecuting environmental crimes

        U.S. Naval War College James F. Forrestal Award for Excellence 
        in Strategy & Force Planning
Military Awards:

        Department of Homeland Security Distinguished Service Medal

        USCG Distinguished Service Medal

        Legion of Merit (4 awards)

        Meritorious Service Medal (3 awards)

        USCG Commendation Medal with Operational Distinguishing Device 
        (3 awards)

        Transportation 9-11 Medal

        Presidential Unit Citation

        USCG Achievement Medal (2 awards)

        USCG Commandant Letter of Commendation with Operational 
        Distinguishing Device

        Department of Transportation Outstanding Unit Award

        Coast Guard Unit Commendation with Operational Distinguishing 
        Device (3 awards)

        Coast Guard Meritorious Unit Commendation (4 awards)

        Coast Guard Meritorious Team Commendation with Operational 
        Distinguishing Device (5 awards)

        Coast Guard Bicentennial Unit Commendation

        National Defense Service Medal (2 awards)

        GAVOT Service Medal

        Humanitarian Service Medal (2 awards)

        Coast Guard Special Operations Service Ribbon (2 awards)

        Coast Guard Sea Service Ribbon

        Coast Guard Overseas Service Ribbon

        Rifle Marksmanship Ribbon

        Pistol Sharpshooter Ribbon

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Safeguarding Our Hemisphere,'' U.S. Naval Institute 
        Proceedings, October 2013.

        ``Merging the Missions: Ensuring Maritime Homeland Security and 
        Defense Through Effective Command and Control:'' Paper 
        submitted to the U.S. Naval War College in partial fulfillment 
        of the requirements for the Degree of Master of Arts in 
        National Security and Strategic Studies, June 2003.

        As Sector Commander, Captain of the Port and Federal Maritime 
        Security Coordinator, USCG Sector Los Angeles--Long Beach from 
        2003-2006, delivered various speeches to civic and business 
        organizations, industry and veterans groups, government 
        agencies, academic institutions, symposia and conferences on 
        general Coast Guard themes, missions and responsibilities.

        As Ninth District Commander from 2008-2010, delivered various 
        speeches to civic and business organizations, industry and 
        veterans groups, government agencies, academic institutions, 
        symposia and conferences on general Coast Guard themes, 
        missions and responsibilities.

        As Deputy National Incident Commander, BP Deepwater Horizon Oil 
        Spill, delivered various speeches to civic and business 
        organizations, academic institutions, government agencies and 
        conferences on leadership during large-scale crises.

        As Deputy Commandant for Operations and as Vice Commandant, 
        delivered various speeches to government, civic and business 
        entities, academic institutions and conferences.

    (Please also see attached spreadsheet for a list of specific 
speeches)
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Appearances at Congressional Hearings:

        17 May 2010: Assessing the Nation's Response to the Deepwater 
        Horizon Oil Spill, Senate Homeland Security & Governmental 
        Affairs Committee

        18 May 2010: Economic and Environmental Impacts of the Recent 
        Oil Spill in the Gulf of Mexico, Senate Environment & Public 
        Works Committee

        19 May 2010: The Deepwater Horizon Oil Spill, House 
        Transportation and Infrastructure Committee

        26 May 2010: Deepwater Horizon: BP Oil Spill in the Gulf of 
        Mexico, House Natural Resources Committee

        12 Jul 2010: Deepwater Horizon Oil Spill Chain of Command: An 
        Examination of Information Sharing Practices During a Spill of 
        National Significance, House Homeland Security Committee, 
        Subcommittee on Management, Investigations & Oversight (Field 
        Hearing in New Orleans, LA)

        22 Sep 2010: DHS Planning & Response: Preliminary Lessons from 
        Deepwater Horizon, House homeland Security Committee

        10 Jul 2012: A Review of Federal Maritime Domain Awareness 
        Programs, Coast Guard & Maritime Transportation Subcommittee of 
        the House Committee on Transportation & Infrastructure

        26 Feb 2013: Coast Guard Mission Balance, Coast Guard & 
        Maritime Transportation Subcommittee of the House Committee on 
        Transportation & Infrastructure

        23 Jul 2014: Implementing U.S. Policy in the Arctic, Coast 
        Guard & Maritime Transportation Subcommittee of the House 
        Committee on Transportation & Infrastructure

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been privileged to serve our Nation for over 33 years as a 
commissioned officer in the United States Coast Guard. During these 
years I have been assigned to a broad variety of operational, staff and 
leadership positions culminating in my current duties as Vice 
Commandant and second in command of the Coast Guard, the Nation's fifth 
armed service and premier maritime law enforcement agency. Each 
successive assignment has brought greater and more complex 
responsibilities.
    As Vice Commandant, I serve as the Vice Service Chief, Chief 
Operating Officer and Component Acquisition Executive responsible to 
train, equip and organize over 50,000 men and women who keep our 
Nation's waters safe, secure and protected. I approve and certify all 
acquisition programs of record for the Service. I oversee compliance 
with the Chief Financial Officer and Federal Financial Reform Act of 
1990 (the Coast Guard is the first Armed Service to achieve a clean 
audit opinion--an achievement we have maintained for two consecutive 
years). I serve as the senior authority for all resource requests and 
budget submissions for the Service.
    I have served as a senior DHS field commander. I commanded the 
Ninth Coast Guard District encompassing all operations on the Great 
Lakes and St Lawrence Seaway and the Northern Border with Canada. I 
commanded Sector Los Angeles-Long Beach and served as the Federal 
Maritime Security Coordinator and Captain of the Port for the. Nation's 
largest port complex in addition to approximately 300 miles of 
California coast and coastal waters. In both commands, I worked closely 
with interagency and international partners, with industry and private 
sector, with citizens groups and with non-governmental organizations to 
develop risk-based methods for screening vessels, cargo and people 
operating in our ports and waterways. I focused on determining highest 
risk commerce while facilitating legitimate activities.
    I also established one of the Nation's first interagency Area 
Maritime Security Committees which brought together leaders from 
industry, labor, government, first responder agencies and the local 
community to tackle the critical challenge of securing the vital Los 
Angeles and Long Beach ports and maritime approaches to the West Coast 
of the United States.
    I have earned three Masters Degrees: in Business Management, Public 
Administration, and National Security and Strategic Studies. I served 
as Detailee for two years to the Senate Appropriations Committee, 
Subcommittee on Transportation. I have extensive experience in budget 
formulation and program review, having served as the Coast Guard Budget 
Officer from 2006-2008. In this role I helped to establish the 
framework for new accounting controls and management policies to ensure 
they were sound, well-understood and practiced uniformly throughout the 
Coast Guard.
    I served as Deputy National Incident Commander for the BP Deepwater 
Horizon Oil Spill in 2010 following the tragic explosion and sinking of 
the Deepwater Horizon Mobile Offshore Drilling Unit, which precipitated 
the largest and longest oil spill in U.S., At the national level, I 
helped to ensure a coordinated, unified, whole-of-government effort to 
respond to the massive spill. I led over 50,000 people from federal, 
state and local agencies, tribal representatives, non-governmental 
organizations, and the private sector throughout five Gulf Coast 
states. I regularly briefed the President, Members of Congress, Cabinet 
Secretaries, state Governors and regional elected officials on progress 
and milestones.
    I have traveled and served extensively, domestically and 
internationally, throughout my Coast Guard career in representation of 
my Service and the Nation, most recently as Head of the U.S. delegation 
to the Arctic Council symposium in Russia and as Head of the U.S. 
delegation to the International Maritime Organization.
    If confirmed for the TSA Administrator position to which I have 
been nominated, I will have the privilege and opportunity to apply my 
law enforcement and security experience and skills to one of the most 
challenging jobs in our nation: protecting our transportation systems--
especially aviation--from terrorists.
    I9. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Administrator is solely responsible for the financial 
performance and accountability of the agency. As Administrator I would 
be responsible for sound stewardship of precious public resources. The 
American public puts great trust in its public servants and we must 
never violate that trust. Given this, the Administrator must also 
ensure transparency through independent review of financial records and 
organizational performance milestones. The Administrator must also 
ensure that financial and managerial teams have the required training 
and skills to meet these mandates.
    I have been privileged to serve our Nation for over 33 years in the 
United States Coast Guard. During these years I have been assigned to a 
broad variety of operational, staff and leadership positions 
culminating in my current duties as Vice Commandant and second in 
command of the Coast Guard, the Nation's fifth armed service and 
premier maritime law enforcement agency. I train, equip and organize 
over 50,000 men and women who keep our Nation's waters safe, secure and 
protected. I approve and certify all acquisition programs of record for 
the Service. I oversee compliance with the Chief Financial Officer and 
Federal Financial Reform Act of 1990 (the Coast Guard is the first 
Armed Service to achieve a clean audit opinion--an achievement we have 
maintained for two consecutive years). I serve as the senior authority 
for all resource requests and budget submissions for the Service.
    The knowledge and experience I have gained over my years of service 
have helped me to understand the motivations and the needs of a dynamic 
and distributed workforce, the workings of our government, and the 
importance of sound and prudent fiscal management as we strive to 
provide the highest quality and most efficient service to the American 
public.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Threat: Threats to our transportation systems are real and 
persistent, and our transportation systems will remain targets of our 
enemies. We can never assume we have found ``the security answer.'' Our 
enemies will continually adapt, so we must continually adapt. We must 
leverage intelligence, technology and the experience of our front-line 
operators and private sector partners to ensure we employ effective, 
efficient and ever-adapting procedures to stop those who would harm us.
    Customer Service: TSA interacts with millions of travelers each 
day--travelers who expect efficient and effective screening with 
minimal delay, and who expect to be treated with respect. In my current 
career I have routinely interacted with the public and have learned 
that an organization must continually reinforce this message of dignity 
and respect in order to make it part of an agency culture.
    Retention, Training and Accountability; Front-line managers and 
screeners are critical to the success of TSA. Agency culture, morale 
and effectiveness are a direct result of consistent and career-long 
training, recognition and accountability.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Please see my nominee PFDR.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I entered into with DHS's 
Designated Agency Ethics Official and that has been provided to this 
Committee.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I consulted with the 
U.S. Office of Government Ethics and the U.S. Department of Homeland 
Security's (DHS) Designated Agency Ethics Official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I entered into with DHS's Designated Agency Ethics Official and 
that has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    See response to question 4 above.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

    a. Provide the name of agency, association, committee, or group;

    b. Provide the date the citation, disciplinary action, complaint, 
or personnel action was issued or initiated;

    c. Describe the citation, disciplinary action, complaint, or 
personnel action;

    d. Provide the results of the citation, disciplinary action, 
complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    Divorce granted February, 11, 1999, by the District Court of 
Montgomery County, Texas, 9th Judicial District.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    No additional information.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                               Attachment

                    Relevant Speeches 2005 to Present
------------------------------------------------------------------------
                                                                 # of
     Title/Topic           Date          Place/Audience        Attendees
------------------------------------------------------------------------
U.S. Coast Guard          10/6/05   American Waterways                50
 update to American                  Operators,
 Waterways Operators                Chicago, IL
 Annual Meeting
------------------------------------------------------------------------
U.S. and Canada            4/4/09   Canada-U.S. Law                   50
 maritime safety and                 Institute Conference,
 security cooperation                Great Lakes Science
                                     Center, Cleveland, OH
------------------------------------------------------------------------
Maritime commerce on      10/1/09   John Carroll University,         120
 the Great Lakes                     Cleveland, OH
------------------------------------------------------------------------
Maritime Security         1/12/11   MIT Lincoln Labs, MA             100
------------------------------------------------------------------------
Maritime Risk             11/7/11   Maritime Risk Symposium,         200
                                     DHS Center of
                                     Excellence, Rutgers
                                     University, NJ
------------------------------------------------------------------------
Effective Emergency        8/6/12   Los Angeles City and             150
 Management                          County Emergency
                                     Management Conference,
                                     Los Angeles, CA
------------------------------------------------------------------------
Diversity and              8/7/12   Association of Naval             200
 Leadership                          Services Officers
                                    Annual Conference, San
                                     Diego, CA
------------------------------------------------------------------------
U.S. Coast Guard          8/27/12   Harbor Safety Committee/         250
 Update                              Area Maritime Security
                                     Committee Annual
                                     Conference, Pittsburg,
                                     PA
------------------------------------------------------------------------
Coast Guard              10/19/12   European Commission               25
 Operations                          Arctic and Fisheries
                                     meeting, Brussels,
                                     Belgium
------------------------------------------------------------------------
International AMVER      10/23/12   International Propeller          650
 Awards for rescue at                Club, Athens, Greece
 sea: Recognizing
 those that
 participate
------------------------------------------------------------------------
Arctic Region:             3/8/13   RAND Corporation,                 50
 Overview, Strategy,                 Arlington, VA
 and Initiatives
------------------------------------------------------------------------
U.S. Coast Guard Role     4/11/13   Arctic Council Meeting,           40
 in the Arctic                       Salekhard, Russia
------------------------------------------------------------------------
Coast Guard role in       5/14/13   Blue Vision Summit,              100
 Ocean Stewardship,                  Carnegie Institution
                                     for Science,
                                     Washington, DC
------------------------------------------------------------------------
U.S. Coast Guard          9/27/13   Panel Discussion, Center          50
 Arctic Strategy                     for Strategic and
                                     International Studies,
                                     Washington, DC
------------------------------------------------------------------------
Arctic Challenges         10/3/13   Propeller Club of the             50
                                     United States,
                                    Washington, DC
------------------------------------------------------------------------
Coast Guard Arctic       10/28/13   Washington Homeland               50
 Strategy                            Security Roundtable,
                                     Washington, DC
------------------------------------------------------------------------
U.S. Coast Guard          6/18/14   Nor-Shipping biennial            150
 Strategic Priorities                conference, Oslo,
                                     Norway
------------------------------------------------------------------------
U.S. Coast Guard          6/26/14   American Petroleum               300
 safety and security                 Institute Meeting,
 update                              Austin, TX
------------------------------------------------------------------------
Diversity and              7/9/14   National Naval Officers          100
 Leadership                          Association, Quantico,
                                     VA
------------------------------------------------------------------------
Diversity and             7/25/14   USCG Women's Leadership          150
 Leadership                          Initiative,
                                    Arlington, VA
------------------------------------------------------------------------
Keynote remarks,          8/19/14   Huntington Ingalls               500
 USCGC JOSHUA JAMES                  Shipyard, Pascagoula,
 commissioning                       MS
 ceremony
------------------------------------------------------------------------
Arctic Challenges and     9/18/14   U.S. Navy International          500
 Adaptation                          Sea Power
                                    Symposium, Newport, RI
------------------------------------------------------------------------
RADM Richard Bennis       10/8/14   NY/NJ Port Authority,             50
 Award Presentation                  New York, NY
------------------------------------------------------------------------
Remarks to the Corps     10/10/14   Mary Baldwin College,            150
 of Cadets on                        Staunton, VA
 Leadership
------------------------------------------------------------------------
Security Challenges      10/16/14   Propeller Club of the             60
 to the Maritime                     United States,
 Transportation                     Los Angeles/Long Beach,
 System                              Los Angeles, CA
------------------------------------------------------------------------
Arctic Futures           10/19/14   Panel Discussion,                 35
                                     Pacific Council on
                                    International Policy,
                                     Santa Monica, CA
------------------------------------------------------------------------
Coast Guard              11/13/14   Cruise Line Industry             150
 Regulation of the                   Association meeting,
 Cruise Line Industry                Miami FL
------------------------------------------------------------------------
Importance of a Name     11/14/14   Bollinger Shipyards USCG          60
 (Why we name our                    Fast Response Cutter
 ships after heroes)                 Heroes Dinner, New
                                     Orleans, LA
------------------------------------------------------------------------

                                 ______
                                 
               Resume of Vice Admiral Peter V. Neffenger
                    Vice Commandant U.S. Coast Guard

    Vice Admiral Peter Neffenger assumed the duties as the 29th Vice 
Commandant in May 2014.
    Prior to this Vice Admiral Neffenger served as the U.S. Coast 
Guard's Deputy Commandant for Operations, where he directed strategy, 
policy, resources and doctrine for the employment of Coast Guard forces 
globally. He is a recognized expert in crisis management, port 
security, maritime law enforcement and oversight of the commercial 
maritime industry. Formally qualified as a Type I Incident Commander, 
he most notably served as the Deputy National Incident Commander for 
the 2010 BP Deepwater Horizon Oil Spill crisis, the largest and most 
complex oil spill in U.S. history. Other Flag assignments include 
Director of Coast Guard Strategic Management and Doctrine, and 
Commander of the Ninth Coast Guard District in charge of Coast Guard 
operations along the Northern Border and throughout the Great Lakes.
    Vice Admiral Neffenger also served as Commander of Coast Guard 
Sector Los Angeles/Long Beach, where he was Captain of the Port, 
Federal Maritime Security Coordinator, Federal On-Scene Coordinator and 
Officer-in-Charge of Marine Inspection for the Nation's largest and 
most economically significant port complex. Additionally, he was the 
Budget Officer of the Coast Guard, the Coast Guard Liaison Officer to 
the Territory of American Samoa, and a student engineer on U.S. Coast 
Guard Cutter GALLATIN among other operational and staff assignments.
    Commissioned in 1982 through Coast Guard Officer Candidate School, 
Vice Admiral Neffenger holds an MPA from Harvard University, an MA in 
National Security and Strategic Studies from the U.S. Naval War 
College, and an MA in Business Management from Central Michigan 
University. He earned his BA from Baldwin Wallace University. Vice 
Admiral Neffenger is a member of the Pacific Council on International 
Policy and a former fellow on the Senate Appropriations Committee.
                           Letters of Support
                                                       May 14, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    I write in support of Vice Admiral Peter Neffenger for his 
nomination as Administrator of the Transportation Security 
Administration. At the outset, I admit to a certain bias. The Coast 
Guard breeds leaders who bring both a strategic and operational 
perspective to their varied tasks and Vice Admiral Peter Neffenger is 
certainly among the best.
    Of particular note is the Admiral's service as Budget Officer of 
the Coast Guard. Having overseen a multitasked organization that, in my 
opinion, never received the level of funding it deserved, I am 
confident he will extract great value and effectiveness from the 
dollars the U.S. Congress appropriates to TSA.
    His experience is broad. His reputation is superb. His commitment 
to public service is profound and unquestionable. I respectfully and 
highly recommend this exceptional leader for TSA Administrator.
            Sincerely,
                                                 Tom Ridge,
                                                   First Secretary,
                                  U.S. Department of Homeland Security,
                                       Former Governor of Pennsylvania.
                                 ______
                                 
                                         The Chertoff Group
                                       Washington, DC, May 11, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    I write in support of Vice Admiral Peter Neffenger for his 
nomination us Administrator of the Transportation Security 
Administration.
    Admiral Neffenger has broad operational and command experience with 
the Coast Guard. He has held command positions at the Great Lakes and 
the Port of Los Angeles, and was deputy national Incident commander for 
the 2010 Deepwater Horizon oil spill In the Gulf of Mexico. In the 
former capacities, the Admiral has dealt with the kind of multi-
stakeholder transportation security issues which lie at the core of the 
TSA's mission. Particularly in a complex environment such as the busy 
Port of Los Angeles, the Captain of the Port must coordinate among 
multiple private service providers while also addressing 
intergovernmental and international issues. These arc exactly the types 
of experiences that prepare Admiral Neffenger for the challenges of 
administering the TSA.
    Equally important is the nominee's crisis management experience, 
recently honed in the crucible of the BP oil spill. From time to time, 
the TSA Administrator must manage security crises, making swift 
operational decisions, reconciling the interests of stakeholders, and 
inspiring confidence in the public. Admiral Neffenger's pivotal role as 
incident commander in the Gulf provides unmatched preparation for 
managing emergencies that may arise in the future.
    Finally, I believe that it is beneficial to have an Administrator 
who has grown up with DHS since its formation. The network of 
relationships that the Admiral will have developed over the past dozen 
years will be of value in enabling him to draw on Department-wide 
resources and In positioning him to integrate with and contribute to 
the leadership of the entire Department.
    I highly recommend Vice Admiral Peter Neffenger for TSA 
Administrator. Please contact me if you have any questions or comments.
            Sincerely,
                                          Michael Chertoff.
                                 ______
                                 
                                   University Of California
                                          Oakland, Ca, May 12, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson:

    I am pleased to write in support of Vice Admiral Peter Neffenger's 
confirmation as Administrator of the Transportation Security 
Administration.
    During my tenure as the Secretary of Homeland Security, I worked 
closely with Admiral Neffenger on issues ranging from our Nation's port 
security operations, and our maritime emergency response capabilities, 
to oversight of the U.S. Coast Guard's annual budget and 
recapitalization efforts. It was in working together that I came to see 
and admire Admiral Neffenger's leadership skills in action. He has an 
uncommon way of solving complex problems and a management style that 
brings people together. Nowhere was this more evident than when he ably 
served as the Deputy National Incident Commander for the 2010 BP 
Deepwater Horizon Oil Spill. In that role, he provided critically 
important and strong leadership in coordinating the government's role 
addressing the largest and most complex oil spill in our Nation's 
history. In my view, his efforts were indispensable in the prompt and 
successful resolution of that crisis.
    I have every confidence that Admiral Neffenger will use his 
considerable knowledge and government experience in overseeing the 
Transportation Security Administration to great effect. His significant 
experience in our country's counter-terrorism efforts and his 
judgement, energy, and leadership skills will ensure that the TSA 
continues to be extremely effective in its mission to protect our 
Nation's transportation safety and infrastructure.
    I highly recommend Vice Admiral Neffenger as the next TSA 
Administrator, and I urge his prompt confirmation. Please do not 
hesitate to be in touch with me if you have any questions or concerns.
            Yours very truly,
                                          Janet Napolitano,
                                                         President.
cc: Senior Vice President Peacock
Associate Vice President Falle
                                 ______
                                 
                                        Arlington, VA, May 10, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    I write to endorse the nomination and urge the rapid confirmation 
of Admiral Peter V. Neffenger to lead the Transportation Security 
Administration (TSA). I have known Pete since 2009 when I assumed 
duties as Deputy Secretary of the Department of Homeland Security 
(DHS). I also know TSA extremely well and can say without hesitation 
that he is the right man for this job.
    Pete Neffenger is not only superbly qualified to lead TSA, he also 
serves as exemplar for precisely the kind of individuals we seek out 
for positions of great responsibility in public service. I know Pete 
well, having collaborated with him on nearly every dimension of 
Homeland Security operations--from preventing terrorist attacks in the 
United States, to responding to the Deep Water Horizon Oil Spill, to 
the daily operations of the Coast Guard. He is extremely smart, 
articulate, and direct--he always speaks honestly, even when his views 
diverge from others.
    Moreover, he has that rare ability to think strategically while 
operating effectively. When writing the first ever white paper for the 
Coast Guard, Pete oversaw an effort that at once did honor to the proud 
tradition of this Service that has been in continuous operations since 
1990, while at the same time cast its ongoing value to the Country in 
clear, operational, and compelling terms. He has an encyclopedic 
knowledge of the transportation infrastructure and challenges facing 
the Nation and he is highly respected by many, many professional 
colleagues across government and the private sector who seek out his 
counsel and deeply value their engagement with him. I count myself 
among their number.
    Admiral Neffenger is a man of character, intelligence, and 
compassion, and the qualities that make him such an effective leader 
combine with his considerable experience to make him pragmatic as well 
as inspirational. The American people can have confidence that he will 
put their security first. In him, the TSA workforce will find a leader 
who will care for them, inspire them, and motivate them to perform 
their best every day for the American public.
    I urge you to confirm him without delay.
    Thank you for the privilege to register my support for Admiral 
Neffenger's nomination and continuation to lead TSA. If I can be of 
further service, please do not hesitate to call on me.
            Sincerely,
                                            Jane Holl Lute,
                                           Former Deputy Secretary,
                                                     Homeland Security.
                                 ______
                                 
                                                Cohen Group
                                       Washington, DC, May 12, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    I write in support of Vice Admiral Peter Neffenger for his 
nomination as Administrator of the Transportation Security 
Administration.
    VADM Neffenger would complete a distinguished 33 year career with 
the U.S. Coast Guard if he is confirmed for this position. He has 
consistently demonstrated the leadership capacity necessary to lead 
TSA. The position requires a balance of focused purpose and customer 
service. VADM Neffenger's Coast Guard career has been dominated by 
assignments where he excelled because he recognized the value of 
reaching to others for input that would make an outcome a better one. 
He is an established leader in transportation security and has led 
Coast Guard participation with state, local, private sector, 
international and other Federal agencies to provide enlightened policy 
on one hand and effective operational execution and command on the 
other. His service as the Deputy National Incident Commander for the 
Deepwater Horizon Oil Spill is a perfect example of his skills as a 
collaborative leader. As the Administrator of TSA in 2002-2003, I can 
attest to the requirement for consistency of mission purpose and an 
ability to work productively with the multiple stakeholders who make up 
the commercial aviation industry. VADM Neffenger has those skills. He 
is a brilliant and focused leader. He is also clearly aware of the 
value of strategic planning and intelligence driven and risk-based 
decisionmaking. He is very simply perfectly equipped for this very 
demanding position.
    I highly recommend Vice Admiral Peter Neffenger for TSA 
Administrator. Please contact me if you have any questions or comments.
            Sincerely,
                                   James M. Loy, ADM (Ret.)
                                                  Senior Counselor.
                                 ______
                                 
                                    Harvard--Kennedy School
                                        Cambridge, MA, May 11, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    I write in support of Vice Admiral Peter Neffenger for his 
nomination as Administrator of the Transportation Security 
Administration. I know of no one more qualified, versatile, and 
generous to lead an agency in transition.
    As former Assistant Secretary of Homeland Security for 
Intergovernmental Affairs, I got to know and work with Vice Admiral 
Neffenger during the course of the BP Oil Spill response. We have 
remained friends. During the spill, Vice Admiral Neffenger was 
appointed Deputy National Incident Commander (NIC) while I was chosen 
to be the Director of intergovernmental and interagency coordination. 
Both were positions within the NIC and both reported to Admiral Thad 
Allen who led the response. We worked closely throughout.
    To say it was an intense experience is an understatement. I have 
come to believe, with the benefit of hindsight, that there were two oil 
spills: the oil spill response and the oil spill event. I want to talk 
about the latter because the oil spill was more than just closing the 
well or picking up the oil; it required skills of its leadership that 
cut across simple operational needs. An entire government apparatus was 
engaged on the Federal level. We also worked with five governors 
offices, numerous local officials, and a Federal apparatus that 
included over 60 agencies and departments. Fishermen and off-shore oil 
workers feared for the future. The media offered non-stop assessments. 
An entire way of life was threatened for families and the Gulf region. 
The spill response required skills of leadership, but also nimbleness. 
No amount of training or incident command could prepare anyone in the 
Coast Guard for what was happening.
    Vice Admiral Neffenger was tasked to manage this historic event. 
More often than not, we worked together and I saw firsthand his 
capacity to talk honestly, make changes, fix errors and sometimes even 
just ``go with the flow'' if that was required. He could just as 
equally brief the President on what to anticipate with the oil spill as 
talk to a grocery store owner about how to fill out a claim form. Every 
morning, for over 100 days, we both hosted a Governor's call with the 
five governors offices so that we could inform them of the status of 
response. Those were not easy calls, often, and Vice Admiral Neffenger 
was calm, explaining the response in ``civilian'' terms, not hiding 
behind acronyms or a military lingo. He also listened well, wanting to 
hear what could be fixed or changed to make the response faster or 
simply answer a question.
    A perfect example is his leadership with the local liaisons 
program. At some stage during the spill, the NIC command recognized 
that local leaders throughout the Gulf were not getting essential 
information from the state. This was as much a consequence of how the 
Oil Pollution Act, the legal framework for spill response, focuses on 
statehouses as it was history and politics. Allen, Vice Admiral 
Neffenger and I proposed placing Coast Guard officials in each local 
government office so that, for example, each parish president would 
have their own ``go to'' Coast Guard liaison. It is not something that 
was ever done before, nor something the Coast Guard had planned for. 
But Vice Admiral Neffenger explained to his team why it should be done, 
and we drove for two days across the coast placing his people in each 
local political office (parish presidents, mayors, county 
commissioners, etc.). It was a necessary fix, and one that worked as we 
were more able to hear from local leadership and respond in real time 
to their questions and concerns. It was Vice Admiral Neffenger's 
capacity to think outside the box, deploy resources where they were 
needed to help the spill response, and convince his team it was worth 
this unusual effort that stand out as historic in nature.
    And while Vice Admiral Neffenger had to spend a lot of time in 
stakeholder engagement and White House briefings, he was also 
accessible, always, to his own team. The Coast Guard was under 
tremendous stress, and the emotional impact was withering. Vice Admiral 
Neffenger always took the time to talk to his own people, to give them 
emotional support (and sometimes even a kick in the back if necessary), 
but to always let them know he had their back. That is essential at the 
Department.
    Vice Admiral Neffenger knows that true leadership in homeland 
security is one that engages the entire enterprise--communities and 
customers, the White House and a parish president, Congress and a state 
representative, and also the brave men and women who work for an agency 
that is committed to the public's safety and security. Vice Admiral 
Peter Neffenger is someone who understands and reflects those basic 
needs.
    Without question, I highly recommend Vice Admiral Peter Neffenger 
for TSA Administrator. Please contact me if you have any questions or 
comments.
            Sincerely,
                                           Juliette Kayyem,
                                         Lecturer in Public Policy.
                                 ______
                                 
                  City of New York--The Police Commissioner
                                         New York, NY, May 11, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson:

    I write in support of Vice Admiral Peter Neffenger for his 
nomination as Administrator of the Transportation Security 
Administration. I first met and worked with Vice Admiral Neffenger when 
I served as the Chief of the Los Angeles Police Department. September 
11 was a fresh wound when I assumed that position, and one of the first 
things we sought to do was strengthen L.A.'s counterterrorism posture. 
In this, I collaborated extensively with the Vice Admiral on enhancing 
the security of the port, and I can attest to his professionalism, 
competence, and dedication.
    Later, as the Vice Chair of the Homeland Security Advisory Council, 
I worked closely with Administrator John Pistole. Owing to this, I have 
an understanding of the TSA and the duties and obligations of its 
leader. I have complete confidence that Vice Admiral Neffenger can 
fulfill the role, and do so in exemplary fashion.
    I highly recommend Vice Admiral Peter Neffenger for TSA 
Administrator. Please feel free to contact me if you have any questions 
or comments.
    All the best,
                                        William J. Bratton,
                                               Police Commissioner.
                                 ______
                                 
                           The American Waterways Operators
                                        Arlington, VA, May 12, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    I write in support of Vice Admiral Peter Neffenger for his 
nomination as Administrator of the Transportation Security 
Administration.
    I have known Vice Admiral Neffenger for most of his professional 
career as a Coast Guard officer. We have worked together extensively on 
the common challenges of marine safety and maritime security that face 
his agency and my industry. He is one of the finest Coast Guard leaders 
who I am privileged to know.
    Vice Admiral Neffenger is a leader with an unwavering commitment to 
America's homeland security, an extraordinary capacity for strategic 
vision, and an effective partner who works collaboratively to get 
important things done for the benefit of our Nation. Each of these 
attributes will serve him well as he works with Congress, industry and 
the flying public to accomplish the important security objectives of 
the TSA.
    Vice Admiral Neffenger is also a man of deep integrity. His 
relationships with Congress, industry and the public will be 
characterized by trust and open communication. I know that based not 
only on my personal experience with him, but also based on the 
experience of hundreds of individual AWO members around the country who 
have worked with him for more than 30 years.
    America's homeland security will be strengthened and enhanced with 
Vice Admiral Neffenger at the helm of the Transportation Security 
Administration. I highly and unequivocally recommend Vice Admiral Peter 
Neffenger for TSA Administrator.
    Please feel free to contact me if you have any questions about my 
strong support for Vice Admiral Neffenger.
            Sincerely,
                                      Thomas A. Allegretti,
                                                 President and CEO.
                                 ______
                                 
                     Cruise Lines International Association
                                       Washington, DC, May 12, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    I write in support of Vice Admiral Peter Neffenger for his 
nomination as Administrator of the Transportation Security 
Administration.
    Vice Admiral Pete Neffenger would serve as Administrator, 
Transportation Security Administration with great distinction just as 
he has served the United States Coast Guard with great distinction 
during his thirty-three year military career. The Cruise lines 
International Association wholeheartedly supports his nomination by the 
President for such an important position that is critical for our 
national security.
    At the Cruise lines International Association, we have had the 
pleasure of working with VADM Neffenger for many years as he progressed 
through his Coast Guard career. We know firsthand of the depth and 
breadth of experience he has illustrated in his senior leadership 
positions that included security and other key responsibilities. 
Specifically, his leadership and pragmatism in emerging areas of policy 
development, including Transnational Crime, Arctic Operations, and 
Passenger Vessel Safety and Security are second to none.
    Prior to his promotion to flag level, we also worked closely with 
VADM Neffenger in his leadership capacity in the Port of Los Angeles/
Long Beach. That particular port addresses a wide range of challenging 
security issues on any given day. His professionalism and intellect are 
hallmarks of his character and both were always front and center, 
irrespective of whether we were in alignment or not on the underlying 
policy equities. This is absolutely essential for success in working 
collaboratively with the regulated community. It is difficult to 
envision someone better equipped to understand and communicate with 
those whose enterprises are deeply influenced by the effectiveness or 
ineffectiveness of TSA.
    On a personal level, I worked closely with VADM Neffenger during my 
own Coast Guard career. This included serving as his legal advisor when 
he was a Director responsible the Coast Guard's resourcing and working 
side-by-side with him during the extraordinarily complex Deepwater 
Horizon incident in 2010. If the Nation were to ever again encounter a 
major transportation security crisis, we could not be in better hands 
than those of VADM Neffenger.
    I greatly appreciate the opportunity to provide you with the views 
of the Cruise Lines International Association on the nomination of VADM 
Neffenger. Please do not hesitate to contact me if I can answer any 
additional questions or be of any further assistance. You can reach me 
on my direct dial or by cell.
            Sincerely,
                                           Charles V. Darr,
                                             Senior Vice President,
                                    Technical & Regulatory Affairs,
                         Cruise Lines International Association (CLIA).

    The Chairman. Thank you, Admiral, for those opening 
remarks. I will start with a couple of questions and then turn 
to our other colleagues who are here.
    As I noted in my opening remarks, DHS Inspector General 
John Roth testified before the House Oversight Government 
Reform Committee last week regarding TSA. He said, and I want 
to quote, ``I am deeply concerned about TSA's ability to 
execute its important mission.''
    Among other things, Mr. Roth's testimony highlighted 
vulnerabilities and challenges related to PreCheck, passenger 
and baggage screening, access controls to secure areas, 
workforce integrity, and operations that you as TSA 
Administrator will have to confront, should you be confirmed.
    Specifically, Mr. Roth testified that TSA did not concur 
with the majority of the OIG's 17 recommendations to address 
vulnerabilities in the PreCheck program, and he said this 
represents, and again I quote, ``TSA's failure to understand 
the gravity of the situation.''
    That testimony raises some serious questions. My question 
is how will you seek to ensure that the core mission of the 
TSA, to protect the Nation's transportation systems, will be 
carried out effectively in light of the concerns that have been 
identified by Mr. Roth?
    Admiral Neffenger. Thanks for that question, Senator. I met 
with Mr. Roth earlier this week, because I read the testimony, 
and I have read the IG reports that were the basis of that 
testimony. I wanted to understand what his concerns were and 
what his concerns were with respect to the responsiveness of 
TSA to those concerns.
    I told him that I saw great value in the oversight 
activities of the Inspector General and I saw great value in 
having an entity outside an agency looking hard at the agency's 
purpose and its actions.
    I see a great work list of issues to attend to. I think the 
Inspector General has raised exactly the kinds of questions 
that if confirmed, I would ask going into TSA, irrespective of 
an Inspector General report out there.
    When I look at the world of security, I think in terms of 
first of all, what is the threat that we are facing, and how is 
that threat evolving over time. There is a big intelligence 
component of that.
    What are the risks or what are the vulnerabilities in the 
system that create the risk of that threat acting, and more 
importantly, what are the capabilities we have to address those 
vulnerabilities and to eliminate that threat if necessary or if 
possible, or reduce it to an acceptable level if it cannot be 
fully eliminated.
    Finally, how does the workforce field those tools, how do 
you train the workforce appropriately to do that, and then how 
do I ensure that workforce stays trained and continually adapts 
and evolves?
    The questions that were raised by the Inspector General are 
questions about ability to adapt to threat, ability to 
understand the intelligence behind the threat, ability to 
understand vulnerabilities in the system, and more importantly, 
an understanding of a security system as a whole and the 
various layers and pieces associated with that.
    If confirmed, I intend to look at those issues carefully. I 
take the IG's reports very seriously. I promised Inspector 
General Roth that I would be back to talk with him in more 
detail if I had the opportunity to do so.
    The Chairman. If you are confirmed, would you pledge to a 
follow-up meeting with Senator Nelson, me, and other interested 
members of the Committee to talk about some of the concerns 
that have been raised--certain TSA policies?
    Admiral Neffenger. Mr. Chairman, I would very much look 
forward to working with this committee on those issues.
    The Chairman. On March 17, 2015, a bipartisan group of 
committee members, including myself, Ranking Member Nelson, 
Senators Ayotte and Cantwell, sent a letter regarding multiple 
serious security lapses involved in the use of secure 
identification display area or SIDA badges.
    The incidents range from a Delta ramp agent in Atlanta 
using a SIDA badge to facilitate an interstate gun smuggling 
operation to a report that thousands of SIDA badges at 
Hartsfield-Jackson Atlanta International Airport were 
unaccounted for.
    Just yesterday, we learned about criminal charges brought 
by the FBI, the IRS, and the U.S. Attorneys Office against 14 
baggage handlers and co-conspirators in California for using 
their SIDA badges to bypass TSA check points in illegally 
transporting drugs across the country over nearly a 3-year 
period.
    TSA's response to our March letter indicated the agency 
does not maintain any record of lost or unaccounted for SIDA 
badges, leaving the airports responsible for the maintenance of 
such records.
    Should you be confirmed, what will you do to ensure that 
TSA does more to oversee and enforce the regulatory 
requirements and security directives regarding SIDA badges so 
that we do not continue to discover these abuses?
    As a follow-up to that, how will you hold airports 
accountable for these very serious security lapses?
    Admiral Neffenger. Senator, I appreciate the fact that your 
staff shared with me the correspondence you have had with TSA 
on this matter. I had a chance to read your letters as well as 
the response from TSA.
    I share your concern with the breaches of security that 
have been discovered over the past months. I am encouraged by 
the Aviation Security Advisory Committee report that looked at 
this issue, and I think there are a number of recommendations 
that came out of that which deserve some attention.
    With a population that is supposed to be known, vetted, and 
trusted comes the responsibility to ensure that you take that 
trust, but you verify periodically that trust is warranted in 
those individuals.
    I know there are a number of airports out there, two in Mr. 
Nelson's state, that are doing 100 percent screening. I believe 
it is Miami Dade and Orlando. I would like to visit those 
airports and understand what 100 percent screening of the 
trusted population looks like, how is it done, and how is it 
done in a way that encourages us that it is effective.
    I think there is a lot to be said for reducing the number 
of access points to airports. Certainly, immediately 
introducing randomized screening of employees so there is an 
expectation that you might be screened when you go there.
    What I would like to say is I want to look at how this is 
currently being done, I want to understand truly what TSA's 
authorities are with respect to oversight of the SIDA badge 
issue, and what are the airport authorities' responsibilities, 
and how are those being overseen and how are those being 
enforced, what are the standards nationwide that are being set 
for that.
    Then what is the insider threat, what are the processes to 
try to identify insider threats in the future, so you do not 
discover after the fact that you have had an operation like 
what was happening in Atlanta.
    The Chairman. You mentioned the advisory committee report. 
Obviously, you are familiar with it. Do you believe it offers a 
good blueprint of actionable items that could be undertaken to 
enhance security?
    Admiral Neffenger. I think it does, Senator.
    The Chairman. My time has expired. I will turn now to 
Senator Nelson for questions he might have.
    Senator Nelson. Again, in the interest of brevity, I will 
submit most of the questions for the record.
    I am delighted to hear you say you will come to Miami and 
Orlando, so you can see how practically speaking it was 
implemented, and it has worked in Miami since 1999, and in 
Orlando, since 2009.
    It is bearing a cost, and that is putting up screening of 
all the airport employees coming onto the premises, by taking 
hundreds of entry points and boiling it down to a handful, and 
then checking them like you would be checking a passenger.
    When you check it out, then the question is, for example, 
on the magnetometer, how much do they tune it up. Do they tune 
it up to the point at which you are screening airport employees 
to the same degree that you are screening passengers, and what 
other checks and balances are there, swiping the card, having 
the employee enter an identification number, so it is another 
check to make sure that the employee is who they say they are 
going into the secure space, which of course, was the problem 
in Atlanta.
    The employees could get in and then they had this 
prearrangements whereby then they would go into the sterile 
area of the passengers, and in the men's room, switch out the 
guns into an empty backpack of the prearranged passenger, who 
then carried these guns--unbelievably--including a carbine. The 
last time they arrested him, he had 16 handguns in his 
backpack. Thank goodness he was a criminal and not a terrorist.
    It again shows the whole airport security is one thing, TSA 
security is another, but this is clearly a case where one 
affected the other.
    Thank you for offering to come, and I hope that you can 
learn something that could be applied to the other 448 airports 
in the country that are not doing this.
    Admiral Neffenger. Thank you, Senator. I look forward to 
the visit, and I look forward to learning what those best 
practices are.
    Senator Nelson [presiding]. I am going to turn to the 
Senator from Connecticut.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thanks for being here, 
Admiral. Thanks for your service to our Nation.
    I want to focus, if I may, on security in rail and transit. 
Our country's public transportation and passenger rail systems 
are used by tens of millions of people every day, and they are 
the backbone of economic activity throughout our Nation.
    We have only to look at the consequences of the 
Philadelphia tragedy to see the losses that can occur when our 
rails are shut down, $100 million a day to the Northeast region 
alone.
    Our rails carry five times as many people per day as our 
airlines do. Penn Station in New York City handles half a 
million passengers a day, making it busier than all of our 
airports, and in your city regional airports combined. It is 
the busiest transportation hub in our country.
    The special commission investigating 9/11 urged vigilant 
protection of, and I am quoting, ``Neglected parts of our 
transportation security system, like rail and transit, just as 
much as we protect aviation.'' That commission said ``Surface 
transportation systems such s railroads and mass transit remain 
hard to protect because they are so inaccessible and 
extensive.''
    I posed some questions during one of our hearings, in fact, 
back in March, on the TSA. I asked TSA in a question for the 
record when the mandates from the 2007 law--it is called 
Implementing Recommendations of the 9/11 Commission Act, Public 
Law 110-53--when those mandates would be approved.
    I received a very broad nebulous statement in response. I 
would appreciate a commitment from you that you will answer 
specifically about those mandates, when they will be 
implemented. The mandates, for example, include approving 
security plans for all railroads that are considered 
vulnerable, high risk targets for terrorist attacks, issue 
regulations that establish training standards on potential 
security threats, provide a framework for conducting name based 
security background checks and immigration status checks.
    These recommendations were due that year, but it is now May 
2015, approaching 8 years since the deadline, and we still have 
no final action on those requirements.
    I am asking you for a commitment to give me specific time 
lines.
    Admiral Neffenger. Senator, I share your concern for the 
security of our surface transportation systems. This is the 
world I have spent most of my career in, primarily maritime 
transportation, but also the intermodal connections to that, 
the rail connections, the trucking connections, and the like, 
and the fact that the surface transportation systems that I am 
familiar with are directly connected and co-located with large 
population centers.
    I understand the concern with respect to that. Our surface 
transportation, as you know, is a much more diverse and 
dispersed set of elements, and you have many, many types of 
elements in that world, from buses and trucks and the like to 
light rail, heavy rail, and passenger rail.
    I think it is important to understand what the various 
threats are out there. I go back to the concern about the 
intelligence, and then more importantly, I think the 
initiatives that are outlined in Public Law 110-53, as you 
noted, are fairly straightforward. Security plans, you do need 
to understand how you are going to respond to something if you 
have an event.
    You need to have a common set of standards across the 
systems. Those standards may differ from mode to mode, but they 
should be consistent within the mode, and they should be based 
upon what we understand of the threat, and they should evolve 
over time. The easiest security system to defeat is the one 
that assumes you got the answer right.
    There are a lot of partners involved in this as well, so 
what is the connection to your private sector partners, the 
other public sector partners, and then how are those 
connections and those partnerships maintained over time.
    I intend to look very hard at this if confirmed, and 
understand----
    Senator Blumenthal. I am asking for a commitment that you 
will give us some time lines as to when there will be 
compliance with the law. That seems like a basic request. Can I 
interpret your remarks as yes?
    Admiral Neffenger. I will look hard at this law, and how 
TSA has addressed its commitments and its responsibilities 
under the law. What I will tell you is I believe very strongly 
in applying the law of the land as it was intended.
    Senator Blumenthal. I hope you do. You are going to be 
taking an oath of office to faithfully execute those laws.
    Admiral Neffenger. Yes, sir.
    Senator Blumenthal. You have done that repeatedly as a 
member of our Armed Services. I know you take them very 
seriously.
    Admiral Neffenger. Yes, sir.
    Senator Blumenthal. These measures were approved by this 
Congress 8 years ago. They still have not been implemented. I 
am asking you for a commitment to develop time lines for 
implementing. I am not asking for them to be done on your first 
day in office. I am asking for a commitment to take them 
seriously and provide time lines.
    Admiral Neffenger. Senator, I will look hard at what the 
current time lines are that have been provided. I assume you 
have been given some indication to date. I would like to find 
out what that is.
    Senator Blumenthal. I will give you the opportunity to 
respond in writing, if you would.
    Admiral Neffenger. I would do that; yes, sir.
    Senator Blumenthal. I do not mean to hit you cold with a 
request of this nature, but I do think it is important to your 
confirmation that you commit to providing some sense of when 
there will be compliance with the law. I think that is a pretty 
reasonable response.
    Admiral Neffenger. I will look at what it takes to comply 
with the law.
    Senator Blumenthal. I am sorry, I think that is a pretty 
reasonable request.
    Admiral Neffenger. Yes, sir. I really do look forward to 
working with you on ensuring I answer that question.
    Senator Blumenthal. In that spirit, I would like to ask you 
whether you would be willing to come to one of our rail 
stations and/or airports in Connecticut to give us some idea of 
what you think the security threats are, either in New Haven, 
Stamford, or Harvard.
    Admiral Neffenger. Senator, I would be happy to do that, 
and if confirmed, I look forward to getting out quite a bit to 
understand--not only to talk about what the current threats are 
but to see how individual components of the system are 
addressing those threats and working collectively to ensure the 
security----
    Senator Blumenthal. I appreciate your commitment to come to 
Connecticut. I will be in touch with your office if you are 
confirmed, and I look forward to receiving more information 
from you in writing about the implementation of Public Law 110-
53.
    Admiral Neffenger. Thank you, Senator.
    The Chairman [presiding]. Thank you, Senator Blumenthal. 
Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thanks so much, Mr. Chairman, and thank 
you, and congratulations on your nomination.
    Obviously, you have a very important job, and it is often 
said it is one of the hardest jobs in Washington, and I think 
that is reflected in some of the questions you have gotten 
today.
    In my home state, as you probably know, we have had several 
people charged since November with traveling or attempting to 
travel to the Middle East to join ISIS, and before that, we had 
a number indicted, and actually a number convicted for trying 
to join al-Shabaab, and that continues to be an issue for our 
state, both groups.
    If you are confirmed, how will you ensure that information 
such as no fly lists or biometric data be disseminated amongst 
allies to prevent someone believed to have been trained by 
terrorists from boarding a plane heading to the U.S. and how 
will you ensure that TSA works with domestic agencies and 
international partners to respond to threats?
    Admiral Neffenger. Thank you, Senator Klobuchar, for the 
question. You are at the heart of the challenge with respect to 
understanding the threat, so it is about information sharing 
and sharing it appropriately and expeditiously, and to the 
right people at the right time, so that you do not have--so 
that if you have somebody attempting to travel unlawfully 
through the system or worse, that you know about that before 
that attempt happens.
    I have had some briefings with respect to how this is 
currently done. There are a lot of players in that world, not 
the least of which are the other Federal law enforcement 
agencies and some of the intelligence agencies of this nation.
    As you know, the Coast Guard has been a member of the 
intelligence community for quite some time. I have worked 
closely in that world. I am familiar with the ways in which you 
have to take national level intelligence and turn it into 
intelligence that can be shared with your local partners and 
even your overseas partners.
    If confirmed, what I would like to do is take a deeper dive 
into how that information is currently moving in the 
transportation security world, particularly how it gets 
processed into TSA, how it gets processed out of TSA, and then 
more importantly, how it gets sent to the very people who need 
to know it the most, which are those front line agents and 
officers who have to actually make a decision on the spot as to 
whether or not somebody is a threat.
    Senator Klobuchar. One other thing related to flying, I 
just wanted to make sure you are aware of, in 2012, Senator 
Blunt and I got passed and signed into law the No Hassle Flying 
Act. It allows the TSA to waive domestic baggage rescreening 
for luggage that has already been screened, which is key, by 
U.S. Customs and Border Protection at a foreign airport that 
meets our standards, such as one of the eight airports in 
Canada that has pre-clearance facilities.
    I asked Acting Administrator Carraway about the 
implementation of this program, and just wanted to let you know 
that I hope it will continue under your leadership.
    Admiral Neffenger. Thank you. It sounds like a good 
program, Senator.
    Senator Klobuchar. Yes, we worked hard on that one. Another 
air-related thing, I head up the Travel Caucus and do a lot of 
work in tourism, and again, Senator Blunt and I got the Brand 
USA reauthorized, so I understand this mix of security 
protection, but as well as trying to make these experiences for 
travelers as we look at bringing people in, so many foreign 
travelers that want to follow the law and visit our shores, how 
important that is to our economy, one of the biggest industries 
in the country.
    Customs and Border Protection has actually worked with 
private sector companies like Disney, and there has been a 
number of airports that have partnered with different private 
sector partners to improve traveler experiences and our 
efficiencies at our port of entry.
    This is not just people waiting in line. It is also about 
how they are treated when they get there. It is also about the 
possibility of having videos of our country that play while 
they are waiting in line and other things.
    I just wondered about your views on that. This is 
completely outside of just the security portion, which of 
course has to be respected, but that does not mean when people 
come to the airport, that we do not want them to have a good 
experience so they want to come back again.
    Can you talk about some of your ideas or what you know 
about this subject?
    Admiral Neffenger. I will, Senator. As you know, the Coast 
Guard has a very public face to it as well. We interact quite a 
bit with the public. Sometimes those interactions are probably 
not what the public wants.
    I can remember as a junior officer boarding a recreational 
boat to determine if they had the proper safety equipment 
onboard and they were operating in a safe manner, and I am sure 
I interrupted a family's enjoyable afternoon on the water. It 
was up in the Great Lakes, as a matter of fact.
    Customer service is important to me, and the way in which 
we interact. The public is as much a part of the system as the 
people there to protect the public.
    In the Coast Guard, every single member of the Coast Guard 
who comes in is read a letter that Alexander Hamilton, first 
Secretary of the Treasury, sent to the first 10 skippers of the 
Revenue Cutter Service, the first 10 commanding officers. The 
Revenue Cutter Service was the precursor to the modern day 
Coast Guard.
    It was a long letter and it laid out all sorts of duties 
and responsibilities, it said what the law was, but if you 
think about this, these revenue cutters were designed to do 
something for the first time, for the brand new United States 
of America, that had never been done, which is to stop merchant 
vessels at sea and collect duties on the cargo they were 
bringing in. Something that was probably not expected or 
welcomed by the people bringing them in.
    In that letter, the most important line, there is one line 
in there where he says ``Always keep in mind that your 
countrymen are free men and as such are impatient of everything 
that bears the least mark of a dominating spirit.''
    He goes on to explain because you have the law on your 
side, and he also goes on to explain that if I find out you 
have mistreated people, then you will have me to answer to.
    That is always in the back of my mind, and over the years--
every time I have advanced somebody in rank or promoted them, I 
always read this letter to them after they take the oath of 
office, and I read this section, and I remind them that first 
and foremost our job is to protect and safeguard the public 
that we serve, it is the public that we serve that put us in 
our job, and they expect to be treated with respect and 
dignity.
    That is the approach that I bring, if I get confirmed at 
TSA. I look to instill that same sentiment.
    Senator Klobuchar. The idea here is to work with the 
Commerce Department, you have to figure this out when you get 
in the job, but to work on some of these issues.
    I think there has been improvement with how TSA has been 
treating people. It is not as much my issue as just looking at 
how we can make things as efficient as possible in those port 
of entries, but also how we can partner with the private sector 
to actually make them look better. They are entering our 
country for the first time.
    This may be a bit of a luxury we have now because the 
economy is improving, but we are having more and more foreign 
visitors on our shore, we are finally advertising in other 
countries, and we want them to come back and spend money in the 
U.S., because that means jobs in the U.S.
    Thank you very much, appreciate it.
    Admiral Neffenger. Thank you.
    The Chairman. Thank you, Senator Klobuchar. Let me just do 
one more follow-up question regarding some of the issues that 
are going to be directly under your jurisdiction.
    We had in 2010 an appearance before this committee of TSA 
Administrator Pistole to rate the effectiveness of the TWIC 
program as 3 out of 10. In addition, the GAO has issued harsh 
criticisms of the program. This committee has repeatedly 
expressed its concerns with delays in issuing TWIC cards to 
individuals, and the long delay in releasing a final rule to 
regulate the TWIC readers.
    Just yesterday, this committee passed legislation that 
would provide for an outside review of the program with the 
goal of developing a corrective action plan to make 
improvements.
    Your role in the Coast Guard working on port security 
issues provides you with unique insight into the value of the 
program. Could you please provide us with your thoughts and 
your plan for improving the management of this program?
    Admiral Neffenger. Thank you, Mr. Chairman. I will start by 
saying I think there is great value in having a known trusted 
vetted population moving in and out of areas that we think may 
have vulnerabilities or security challenges, and the port 
environment is one of those, very dynamic and very open 
environments, and there is a lot of moving in and out.
    I think the goal of a vetted understood population is a 
laudable one and a good one.
    The TWIC program itself has been challenging over the 
years, and although I have not in the Coast Guard been directly 
involved in the various components, I have had oversight 
responsibility for aspects of it.
    The reader rule, as you know, is a Coast Guard owned rule, 
and that is in the process of coming to fruition now, which 
would allow us to actually read the biometric on the chip.
    I am in favor of independent reviews on a periodic basis 
because I think they can raise issues that you might become 
blind to over time, as you are working through the 
implementation of a project.
    This was a challenging project, I know, over time because 
in some senses it was maybe the largest issuance of a Federal 
I.D. to a private workforce that will then be privately 
enforced at multiple locations around the Nation. There are 
challenges associated with that.
    I am interested in looking at delving deeper into the GAO 
concerns, meeting with the GAO. I have not had a chance to sit 
down with the General Accountability Office yet, but I intend 
to do so over the coming weeks, and in particular, take a 
harder look at the current status of TWIC.
    I know in the briefings I have had with TSA, they have done 
a lot of things to improve the throughput and the turn around 
time on the TWIC, but ultimately what you want is an I.D. card 
that can be trusted, and that can verify the individual who is 
presenting it is in fact that individual.
    The Chairman. This is a little bit off topic, at least with 
your nomination for TSA, but would you like to share with the 
Committee your understanding of the Coast Guard response to the 
oil spill near Santa Barbara?
    Admiral Neffenger. That is an ongoing spill response. As 
you know, it happened over the--it was a pipeline spill, a 
pipeline rupture. It has put a fair amount of oil into the 
water. I forget the exact number of gallons, but it is 
significant enough to have caused some shore line impacts.
    The response is fairly straightforward in terms of the 
techniques that are used, and I think from the response 
standpoint, I think the responders are doing everything they 
can do at this point.
    The real challenge is in the long term clean up as well as 
the long term mitigation efforts that might follow as a result 
of that, and then holding the company accountable for that and 
the costs associated with the spill.
    I know we have a number of responders. I do not know the 
exact count. The local Coast Guard Captain in that region is 
responding to that. We are quite concerned; there are some 
highly sensitive areas along the California coast there. We 
want to make sure we have addressed the potential for any 
follow on spills that come out of that.
    I can provide the Committee with detail on that, and I 
would be happy to do so for the record.
    [The information referred to follows:]

    1. The Responsible Party's worst case estimate is 101,000-140,000 
gallons, with an estimated 21,000 gallons reaching the ocean. Source: 
http://www.refugio
response.com
    2. At the height of the spill response, approximately 1,400 
personnel were in the Incident Command Post and the field conducting 
response operations (June 29, 2015). At present (August 30, 2015), 91 
responders and incident management personnel are conducting maintenance 
and monitoring.
    3. The spill occurred on May 19, 2015 and transitioned to Phase III 
(with approval of the Guidelines for Maintenance and Monitoring) on 
August 7, 2015 (81 days). Maintenance and monitoring activities are 
ongoing.
    4. Key partners involved:

        a. U.S. Department of Transportation

        b. USCG

        c. EPA

        d. U.S. Fish and Wildlife Service

        e. NOAA

        f. California (CA) Department of Fish and Wildlife

        g. Office of Spill Prevention and Response

        h. Santa Barbara County

        i. Chumash Indian Tribe

        j. 55 local environmental non-government organizations

    5. Future plans: Per Phase III (Guidelines for Maintenance and 
Monitoring), teams will continue to survey and monitor from Arroyo 
Hondo to Rincon Point following the Shoreline Cleanup Assessment 
Technique (SCAT) process. The SCAT process characterizes and documents 
the nature and extent of oiling and recommends appropriate treatment 
within the affected areas. SCAT surveys will be conducted using 
standardized protocols by teams on foot for accessible shorelines in 
the affected area.
    SCAT teams will:

  <bullet> Survey for buried oil that has been uncovered through sand 
        erosion;

  <bullet> Conduct periodic oil sampling throughout the Santa Barbara 
        response area and compare oil samples to the oil that was 
        discharged from Line 901;

  <bullet> Search for and sample oil in areas after the first 
        significant storm event (storms erode beaches and may reveal 
        previously unknown oil deposits);

  <bullet> Conduct sampling in December 2015 and May of 2016;

  <bullet> Determine cleanup needs if Line 901 oil is found; and

  <bullet> Monitor progress in areas where scientists determine that 
        further cleanup would do greater harm to the environment versus 
        natural recovery/remediation processes.

    The Chairman. You were the on-the-scene coordinator for the 
BP oil spill, which this committee just had a hearing on, on 
its anniversary. Can you give us maybe a sense of the Coast 
Guard response with state and other partners there?
    Admiral Neffenger. As you know, the BP oil spill was the 
largest oil spill in our history, and what made it particularly 
challenging is it was an ongoing spill for 75 consecutive days. 
We had the equivalent of a spill the size of the Exxon Valdez 
every single day for 75 days, so matter what you did 1 day, you 
were looking at a huge volume of oil the following day.
    That one taxed all the resources available. At one point we 
had 2,500 miles of boom stretched out. I think given its scope, 
given the complexity of that spill, it stretched across five 
Gulf states, it impacted many different types of wildlife, 
shore line, and habitat. We put to bear pretty much every type 
of oil clean up technique and equipment type you could have, 
over 50,000 people responding.
    I think in retrospect, given the severity of the spill and 
given the fact that any time you have that much of an oil 
spill, you are going to have damage and environmental impact.
    I think the responders did truly a remarkable job of 
limiting the amount of damage done. That is not to say there is 
not damage and there is not going to be some ongoing 
assessments with respect to how severe that damage was.
    I think when you look in retrospect at how much was done 
and how much had to be done, it is remarkable that we did not 
see even more damage from that spill.
    The Chairman. All right. I think we have exhausted the 
people who want to ask you questions. Maybe not. The Senator 
from Alaska has arrived. We will give him a minute. I think you 
may be here on the hot seat for at least a few more minutes. 
Senator Sullivan?

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. Admiral, thanks. 
Sorry about the tardy arrival here.
    One thing that I just wanted to start with, first, thanks 
for your outstanding career with the Coast Guard. I always like 
to ask candidates or nominees for these important positions the 
very basic question of why you want the job.
    You know, TSA, if you get confirmed, you are going to come 
back to this committee. There will be hiccups and things you 
are going to have to answer for. You probably are going to have 
the cameras rolling and some senator beating the living 
daylights out of you on TV.
    Why do you want to do this?
    Admiral Neffenger. Senator Sullivan, thank you. That is a 
great question. That is a question I asked myself. I wind up 
with the same answer that had me join the Coast Guard in the 
first place.
    As corny as it may sound--I was 5 years old when John 
Kennedy was inaugurated as President. I grew up with the ``ask 
what you can do for your country'' tag line, and it was drilled 
into us by every teacher I had throughout my grade school and 
elementary school experience. My parents reminded me of that 
repeatedly.
    I grew up with this idea of public service. I really 
believe in public service. I believe it is an important--there 
are important missions in serving the public.
    Some of this is when your country asks you for something, I 
think you owe it to your country to consider it. Then I looked 
at the agency itself. I thought how would I fit into the 
Transportation Security Administration, and there are a 
remarkable number of similarities between the Coast Guard and 
TSA in these terms, it is a mission-focused agency, it has a 
really, really important mission. In many respects, it is a no 
fail mission.
    I am impressed by people who have already raised their hand 
and taken an oath and said I want to do that, I want to do this 
really hard job that this Nation has to offer me. I know it is 
going to be a tough job. It might not even be a job where I am 
well liked.
    I look at the men and women who are on the front line at 
TSA every day, and I think that is really a tough, tough job, 
and they deserve somebody who respects and admires them for the 
work they do.
    I like that idea. I like the idea of building an agency 
culture around mission. I like the idea of reminding people of 
the importance of those missions, and then I am familiar with 
these geographically diverse and dispersed workforces. It is a 
relatively junior workforce in terms of their relative place in 
the organization. How do you engage a workforce like that, and 
how do you get them to feel a part of something.
    We have some pretty remote Coast Guard locations, you know 
yourself, you have some really remote Coast Guard locations in 
Alaska. There is a great story about a guy who got sent to St. 
Paul once and he thought it was Minnesota and found out it was 
Alaska and told his family that----
    Senator Sullivan. I was just with a bunch of Alaskans in 
St. Paul yesterday. Great Americans.
    Admiral Neffenger. He spent most of the time moving a rock 
from one side of the island to the other to try to get a little 
closer to home.
    I look at that and I think how do you touch people, how do 
you trust them to do the job. They are very young, they are 
junior. You are giving them in many respects some of the most 
challenging missions they could have, and you tell them you 
cannot fail, and then you leave them all alone on their own.
    I think all of that looks like a way of thinking that 
applies directly to the Transportation Security Administration, 
and as I said, it looked more and more intriguing the more I 
saw it, and I believe in public service.
    Senator Sullivan. Great. Thank you for that. I appreciate 
that heartfelt answer. It is good to hear.
    I want to talk about emerging threats and how you believe 
TSA is keeping ahead of those threats, do you think they are? 
What do you think we need to do?
    There has been a lot of criticism of the agency, that you 
if confirmed will be leading. I think any time you stand up a 
brand new agency, particularly in the kind of circumstances 
that we stood up TSA after 9/11, there is going to be hiccups, 
there is going to be bumps in the road.
    I always go out of my way in Alaska to compliment our TSA 
agents who I think are doing a good job, not perfect. There are 
some issues that a lot of Alaskans have concerns about. I had 
an address to our state legislature, one of the leaders in the 
state legislature had concerns about the TSA becoming much more 
kind of law enforcement as opposed to security.
    How do you mix those and stay in front of these emerging 
threats? As you say, we cannot afford to fail in that mission 
the TSA has.
    Admiral Neffenger. That is the challenge, I think, facing 
TSA. As I think about security and I think about what makes for 
an effective security system, clearly, there has to be a number 
of layers in that security system, and no one single layer can 
be expected to stop all threats from getting through.
    Then how does that system evolve over time. We know those 
who would exploit or do harm are those who would try to bypass 
the system or game the system will do so if it is static over 
time. How do you evolve that system, how do you understand how 
the threat is changing.
    As I look at the threat streams, and I have had a number of 
briefings on the current threat to the transportation systems, 
specifically the aviation systems, and we know that threat is 
evolving.
    It evolved immediately after 9/11. You saw Richard Reid, 
the shoe bomber, very shortly after 9/11, and Abdulmutallab, 
the underwear bomber case. All of those things tell us that you 
have a learning enemy, and the enemy does get a vote in this as 
well.
    I think it is important that you have a clear and strong 
connection to the intelligence community, that your 
intelligence community is focused on understanding the threat 
and how it might be evolving, that you pay attention to what 
the intelligence community is saying, and that you disseminate 
that.
    You have to get that training into the workforce, and then 
you have to have a system that adapts to the threat, so that 
if, for example, you have some element of your security system 
that no longer addresses some specific new threat, then what 
are the other layers of your system that can compensate for 
that until you can get that element back up to where it needs 
to be.
    If confirmed, I intend to ask lots of questions about that, 
and I would really want to focus on this evolving adaptable 
nature. I think that has to be built into the culture of the 
organization. It has to be a learning organization, an adapting 
organization, one that never thinks it got the question right.
    The security system today does not necessarily mean that is 
the security system of tomorrow. In fact, I want to know what 
the security system tomorrow looks like, next year, and the 
year after, so it stays ahead of the enemy that would exploit 
the system.
    Senator Sullivan. Let me ask one final question. This is a 
little bit more kind of Alaska and regional specific. After 9/
11, Congress mandated that airports install explosive detective 
systems. There was a promise of Federal cost sharing, that 90 
to 95 percent, I think most airports have abided by that, have 
implemented that.
    I also think most airports have not received in return the 
promise of reimbursements. I think in Alaska, the Anchorage 
Airport has about a $20 million reimbursement. For an airport 
our size, that is a significant amount of money. It is 
obviously much larger in some of the bigger airports.
    Would you consider making sure these outstanding 
reimbursements are part of the President's budget request if 
confirmed? Right now, I believe that is an issue that has not 
come up in the budget, even though there was a reliance by 
many, many airports throughout the country on that promise.
    Admiral Neffenger. As I understand it, I think you are 
referring to in line baggage systems in particular in airports 
and the program that would allow airports to seek reimbursement 
or Federal matching funding for that.
    I am not familiar with the specific case in Anchorage. I 
have been briefed in general on that program. If confirmed, I 
want to understand first of all how much money has been 
allocated to that, what is the appropriation, and are the 
resources that have been currently appropriated adequate to 
support the program, and what are the ways in which that 
program operates, what is the process for doing that, and how 
well understood is that process and how well has it been done.
    What I would like to do is look at that, and promise to 
come back to you, Senator, and tell you what I found 
afterwards.
    Senator Sullivan [presiding]. Great. That concludes the 
hearing. The hearing record will remain open for two weeks. 
During this time, Senators are asked to submit any additional 
questions for the record. Upon receipt, the witnesses are 
requested to submit their written responses and answers to the 
Committee as soon as possible.
    Senator Sullivan. I want to thank you, Admiral, for your 
desire to serve your country, for your great service to your 
country. I have not even asked you if you have served in 
Alaska. Have you?
    Admiral Neffenger. Unfortunately, I never had the chance to 
be stationed there.
    Senator Sullivan. I will not hold that against you.
    Admiral Neffenger. I spent a lot of time in Alaska. In 
fact, I was up in Barrow just about 4 months ago.
    Senator Sullivan. The Coast Guard does fantastic work up 
there. We just want more Coasties, not less, in Alaska.
    This hearing is now adjourned. Thank you very much.
    [Whereupon, at 12:02 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                    Vice Admiral Peter V. Neffenger
    Question 1. In March of this year, Senator Nelson and I sent a 
letter to the Transportation Security Administration (TSA) regarding 
the revelation that the agency had allowed a convicted domestic 
terrorist to qualify for expedited screening. Clearly, an incident like 
this reflects the necessity for the TSA to continually revise its 
screening processes and risk assessment rules in order to reduce 
vulnerabilities. Should you be confirmed as TSA Administrator, what 
would you do to improve risk-based, expedited screening initiatives to 
reduce security vulnerabilities?
    Answer. A risk-based approach to security requires continuous 
assessment, adaptation to threats, and adjustments to the security 
regime to ensure the system remains responsive, unpredictable, and 
layered. Recognizing that the vast majority of the people, goods, and 
services moving through our transportation system are legitimate and 
appropriate, the key elements are to segregate risks, identify less 
risky populations, and then apply a range of capabilities tailored to 
each operating location and to each population. This approach requires 
continuous assessment of the threat, a focused and on-going effort to 
continue to partition risk, an aggressive process to understanding and 
mitigating the system's vulnerabilities, a nimble operational concept, 
a rapid development process for new capabilities, and vigorous testing 
and training of the workforce. If confirmed, my intent would be to 
ensure such a system is in place. I would work to strengthen our self-
assessment capabilities, evaluate our vulnerability mitigation plans, 
closely review operations and training, include the efficacy of 
expedited screening operations, and I would ensure we have a process to 
continually measure the appropriateness and effectiveness of the 
various layers and tools of security currently in use.

    Question 2. In March 2015, an investigative report documented 
misconduct among some Federal Air Marshals who were inappropriately 
reassigned from their allotted flights as part of a scheme to 
facilitate improper relationships with other employees or to get better 
routes and travel to cities they preferred. I wrote a letter last 
month, along with Sen. Nelson, to the Department of Homeland Security's 
Inspector General (IG) asking him to investigate any criminal activity 
that occurred and any high risk flights that should have been covered 
by the Federal Air Marshals that were not staffed appropriately as a 
result of the misconduct. The IG responded that his office has joined 
the criminal investigation into misconduct currently being led by TSA's 
Office of Inspections and the Department of Justice. With this and 
other serious instances of employee misconduct reported in the media in 
recent months, how do you intend to ensure that TSA maintains a culture 
of integrity?
    Answer. Based on my experiences in leadership and public service I 
believe that an organization must continually set and reinforce the 
standards of dignity, respect, integrity, and professionalism in order 
to embed them into an agency's culture. An agency must set clear 
standards of behavior, train and operate to those standards, and hold 
its members appropriately accountable when they violate those 
standards. If confirmed, I will follow these proven lessons of 
leadership and apply a similar effort in conveying the values of the 
organization, to further instill them into the daily behavior of every 
employee throughout the TSA workforce, and to hold individuals 
accountable when behavior falls short of these expectations.

    Question 3. Serious allegations about employee misconduct at TSA 
have a negative effect on employee morale. How do you intend to work on 
improving employee morale at TSA with its large workforce of over 
50,000 personnel?
    Answer. My experience reflects that strong and positive morale 
results directly from a positive leadership approach. In this approach, 
leaders care about what matters to those we lead. Successful leaders 
have an awareness of what compels employees to commit their talents, 
energy, and effort to any endeavor. In my view, regardless of the 
generation, what drives motivations of the employees in a workforce is 
knowing that what they do matters, that the work is meaningful, and 
that each employee can provide value and make a difference. Thus, if 
confirmed, it will be my intent to ensure that each member of TSA has a 
clear, well-defined purpose, that they know the importance of their 
mission, that they are trained and empowered to perform their duties, 
that they are valued and supported in doing that mission, and that 
leadership provides equitable and consistent accountability at all 
levels, as well as appropriate recognition for performance. Another 
significant component of morale and performance is the recognition in 
the workforce that the leaders appreciate the challenges of their 
employees' work and that the leaders are responding to those 
challenges. Leaders must create opportunities to listen to the 
workforce, to understand workforce challenges, and to act upon concerns 
both to advance the mission and to support employees in executing their 
duties. This can take the form of new training, better tools, and 
improved procedures or it can mean that we have their back when we ask 
them to do difficult things as part of their no-fail mission. This is 
the approach I have taken in my current career, and, if confirmed, it 
is the approach I will bring to TSA.

    Question 4. While the focus at TSA is largely on commercial 
aviation, international terrorist attacks have proven that ``soft'' 
targets like passenger rail, transit systems, and pipelines are also 
attractive for terrorist groups and lone wolves. How will you allocate 
resources to these potentially more vulnerable targets in a risk based 
manner?
    Answer. Surface transportation comes in many forms--buses, ferries, 
passenger rail, heavy rail, light rail, subways, and other similar 
conveyances. These modes are widely distributed and, by their nature 
and design, are more open and accessible than the aviation sector. 
Still, delivering security to these systems requires a similar approach 
to the one employed in securing aviation. These modes require a 
continuous evaluation of the strategic security environment, as well as 
an understanding of the threats and how they are evolving. They also 
require that we field appropriate capabilities to address these 
threats. These capabilities are responsive to the distributed nature of 
these transportation modes. Ultimately, in the surface sector, security 
is best delivered through a network of interconnected capabilities and, 
by necessity, includes partnerships with state and local transportation 
security providers. TSA plays an important role in developing standards 
and best practices in leveraging this distributed capability, as well 
as sharing information among these entities. If confirmed, I will 
examine the nature and extent of these partnerships, seek to understand 
their challenges and effectiveness, and provide the oversight and 
standards needed to ensure there are appropriate and effective 
protections in place.

    Question 5. On May 6, 2015, TSA resubmitted to Congress two 
controversial fee proposals. The first would increase the Aviation 
Passenger Security Fee from $5.60 per one-way trip to $6.00 in the 
second quarter of FY2016, and would continue to increase the fee up to 
$7.50 in FY2019. The second proposal would, in FY 2017, reinstate the 
Aviation Security Infrastructure Fee, which was repealed under the 
Bipartisan Budget Act that the President signed last year. What are 
your thoughts on the current proposals put forward by the TSA to 
increase the Aviation Security Passenger Fee and reinstate the Aviation 
Security Infrastructure Fee? Will you commit to working with this 
Committee and others in Congress when such issues arise, should you be 
confirmed?
    Answer. I am aware that passenger fees are used to help fund the 
TSA mission in addition to annual appropriated funds. If confirmed, I 
look forward to examining both the current execution of the FY15 
appropriated budget and the FY16 budget request to ensure the agency is 
suitably resourced for its important mission. Also, if confirmed, I 
look forward to working with this Committee and the Congress to strike 
an appropriate balance among fee-based and appropriated funding 
approaches.

    Question 6. TSA serves as the face of the Federal Government to 
millions of Americans every day. You mentioned in your reply to the 
Committee's questionnaire that customer experience is among the top 
challenges you see facing the TSA. What will you do to improve customer 
experience should you be confirmed as TSA Administrator? How will you 
engage with stakeholders like airports and technology companies to 
improve the relationship with TSA in order to effectively and reliably 
secure transportation systems?
    Answer. Through my current career, I have routinely interacted with 
the public in enforcing maritime safety and in conducting the Coast 
Guard's law enforcement missions. I have learned that an organization 
designed to enforce rules and the law must do so with respect for the 
public that it serves, and a commitment to doing so professionally and 
dispassionately. We live in a nation that cherishes its rights and 
liberties, and our workforce must respect these rights and liberties 
while performing its security mission. While security is inherently 
intrusive, TSA must exercise its authorities with the highest degree of 
dignity and respect. In my experience in the Coast Guard, continually 
reinforcing this message and ensuring that leaders at all levels 
reinforce those expectations can be successful in embedding them into 
an agency's culture. If confirmed, reinforcing and instilling this 
mindset into the TSA workforce will help to ensure a positive 
experience without compromising the effectiveness or success of the 
security mission.
    The security of our transportation system also depends upon strong 
partnerships at all levels of government, with the private sector and 
with the traveling public. If confirmed, I envision communication, 
genuine collaboration, information sharing and involving stakeholders 
in developing solutions to the challenges we face as key elements of 
the approach I would take in leading TSA and in protecting our national 
transportation system. I have had extensive experience in working 
across government, with the private sector and with the public in 
setting and achieving security goals, and if confirmed, will continue 
to employ this collaborative approach.

    Question 7. TSA has faced significant challenges in the past in 
developing and responsibly acquiring new security technologies. Given 
how important cutting edge technology is to securing our Nation's 
critical transportation systems, how should TSA's limited resources be 
focused to develop and acquire better technology and how can the 
current process be responsibly streamlined to ensure that taxpayer 
dollars are not being wasted?
    Answer. Science, technology, research, and product development will 
continue to provide invaluable tools to support the TSA security 
mission. In my current role as Vice Commandant of the Coast Guard, I 
serve as the Component Acquisition Executive. I have been directly 
involved in managing this system as well as participating in a variety 
of system and process improvements over the past decade. I understand 
how critical a sound, defensible, and responsive acquisition program is 
to mission results. It requires a deep understanding of the 
capabilities of potential technology, partnerships with industry and 
the private sector to ensure appropriate investment, flexible and 
adaptive systems that are responsive to the threat without sacrificing 
strong controls and program oversight, sound project management, and 
strict adherence to Federal law and DHS policies. In my preparation, I 
have been provided an overview of the TSA Acquisition Program and the 
program management process. If confirmed, I will apply my extensive 
experience in acquisition oversight to the TSA acquisition enterprise 
to ensure that our investments are appropriate, deliver results, and 
that they provide sound stewardship and a return on taxpayer 
investment.

    Question 8. TSA's best-known risk-based security initiative is the 
PreCheck Application Program, which has been popular with travelers and 
has provided TSA with important cost savings. Although the PreCheck 
Application Program benefits both TSA and trusted travelers, there has 
apparently never been a marketing or technology plan developed and 
deployed to help drive greater numbers of enrollments. While any 
potential expansion of the program must involve appropriate vetting of 
enrollees, what are your views on PreCheck Application Program 
expansion, and do you see a role for airports and the private sector to 
facilitate such an expansion? If you are confirmed as Administrator, 
would you commit to pursuing more enrollment options and marketing the 
program to increase participation in a responsible manner? Acting 
Administrator Carraway told the Committee at a March 2015 oversight 
hearing that the TSA's Request for Proposals related to PreCheck 
Application Program expansion would be reissued within a week, which 
did not occur. Will you commit to examining promptly and reissuing the 
RFP, if appropriate?
    Answer. I support the expansion of risk-based initiatives. It is my 
understanding that the PreCheck Program has helped TSA learn more about 
the traveling public and that it is a key element in the risk-based 
approach that allows TSA to focus its highest efforts on travelers whom 
we know less and who may pose a potentially higher security risk. If 
confirmed, I will review the RFP referenced above. If confirmed, I also 
intend to pursue methods to increase participation in a responsible 
manner, particularly in ensuring we have high confidence in the risk 
assessments this process delivers, as well as determining the 
feasibility of pursuing additional enrollment locations.

    Question 9. TSA is currently involved in longstanding patent 
infringement litigation with a small business known as SecurityPoint 
regarding airport security checkpoint advertising systems intended to 
save money for taxpayers and airports by offsetting costs. The Federal 
Government could potentially be liable for significant sums if the case 
is not settled and SecurityPoint's patent is found to be valid. 
Moreover, as a result of the pending litigation, TSA has allegedly 
blocked SecurityPoint from contracting with additional airport 
authorities, thereby preventing the agency, taxpayers, and airport 
authorities from benefiting from the associated cost savings. If true, 
TSA's actions are troubling and raise broader concerns about the way 
TSA handles such matters and engages with the private sector. Have you 
been briefed on this litigation and/or TSA's actions with respect to 
airport authorities seeking to enter into new contracts with the 
company? Will you commit to reviewing this matter and taking 
appropriate action to ensure that TSA resolves this issue in a way that 
minimizes the exposure of taxpayers and allows TSA to achieve cost 
savings and screening efficiencies from private sector technologies?
    Answer. I have not been briefed on this issue, and if confirmed, I 
commit to reviewing this further.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                    Vice Admiral Peter V. Neffenger
    Question. Admiral Neffenger, TSA calculates and uses a Federal Cost 
Estimate (FCE) to set minimum acceptable bids in all Screening 
Partnership Program (SPP) solicitations. Yet, by its own admission, TSA 
does NOT include total cost to the Federal Government as-a-whole in its 
FCE, but instead includes only costs associated with TSA specifically. 
Such a FCE significantly underestimates total costs to provide airport 
security screening, and its use by TSA to set minimum acceptable bids 
for SPP solicitations creates an equally significant disincentive for 
potential SPP contractors to even submit bids for such contracts. 
Furthermore, by using this method to set artificially low minimum 
acceptable bids in solicitations, the potential is increased that 
important security corners will have to be cut in order to meet the 
artificially low cost requirement. If TSA continues to use a Federal 
Cost Estimate in this way, will you insist that the total costs to the 
Federal Government are included in its calculation? If not, why not?
    Answer. During my nomination proceedings, I have received briefings 
on the Screening Partnership Program. I understand that SPP has gone 
through a recent set of reforms providing for a more efficient 
application and procurement process. If confirmed, I look forward to 
reviewing the methodologies and cost estimates that are used to 
calculate the feasibility of a privatized screening workforce and to 
better understand how those decisions are made.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                    Vice Admiral Peter V. Neffenger
    Question 1. In early 2012, TSA installed new Advanced Imaging 
Technology (AIT) millimeter wave full-body scanner at five airports in 
Montana, and one more was allocated to Great Falls upon completion of a 
security checkpoint expansion. One year later, TSA removed AITs from 
two Montana airports, Helena and Kalispell, as well as other small 
airports across the US. Airport operators were told that these new 
machines were being sent to larger airports to replace backscatter 
scanners being removed due to agency's failure to meet the June 1, 2013 
deadline set by Congress for privacy software upgrades. No plans were 
made to replace the new AIT machines at smaller airports.
    Additionally, recent GAO investigations indicate Red Team agents 
were able to get prohibited devices through security checkpoints more 
than 95 percent of the time. Would further AIT implementation have 
increased the success rate of TSA airport screeners? What will be your 
plan as Administrator to procure, deploy, and install AIT machines at 
smaller airports in Montana and across the US--especially for those 
that were removed or allocated and never received? Will this be 
expedited in light of recent investigations? How will AIT operators' 
and screeners' training be revised to ensure passenger safety is not 
compromised and public trust is regained?
    Answer. If confirmed, I will review and evaluate current TSA plans 
to procure, deploy and install AIT equipment at airports that do not 
currently have them. In the meantime, I will immediately address the 
vulnerabilities brought to light by the Inspector General's covert 
testing. This will include carrying out Secretary Johnson's recent 
directives while concurrently seeking to understand and correct the 
more systemic issues that may have given rise to the failures. 
Immediate directives are targeted at standards and training across the 
workforce--what must be done right away to close the gaps found, and 
what must be done in future? TSA must focus on the mission, understand 
what must be done to accomplish that mission, set and enforce high 
standards of training and accountability, and then test to ensure those 
standards are maintained.

    Question 2. Twenty-one airports nationwide participate in the TSA's 
Screening Partnership Program (SPP). With nearly half of them in 
Montana, 9 of Montana's 13 commercial service airports, participating 
in the private screening program. What steps will you take to expand 
SPP to ensure that Montanans maintain this service and it is expanded 
to other communities?
    Answer. I understand that airports can apply to TSA for private 
sector entities to perform passenger screening under the Screening 
Partnership Program. While I believe that it is critical to have a 
national set of standards for aviation security, and that there must be 
national oversight of the implementation of those standards, the option 
for private sector screeners may provide an opportunity to provide 
services at lower taxpayer cost. To that end, if confirmed, I will 
ensure that airports that wish to explore participation in the 
Screening Partnership Program are afforded the opportunity to do so, 
and that the program itself is well-understood and publicized as an 
option.

    Question 3. Montana airports continue to grow at a pace surpassing 
the national average. Bozeman's airport enplanements has grown 26 
percent since 2011 while nationally growth has only been 4 percent. It 
has just been named a ``Small Hub'' by the FAA. A lot of this growth 
comes in surges during the winter and summer tourist months. We welcome 
these visitors, but want to make sure that both visitors and residents 
don't experience delays and inefficiencies during these busy times. 
What staffing steps would lead the TSA in to accommodate this growth 
and seasonal surges?
    Given the cap on TSA screener workforce, selectively deployed 
screening technology, and forecast passenger growth, how would you 
guide the TSA to achieve efficient thru-put at security checkpoints 
across the US, including rural airports, Small Hubs and larger 
airports?
    Answer. Our aviation security system must always remain attentive 
to the need to ensure the continued and efficient movement of 
passengers and cargo. If confirmed, I will examine TSA's, and SPP 
contractors', current airport staffing models to determine whether they 
are sufficient to meet demand. In particular, I will focus on seasonal 
surge needs. This will include a review of overall system design to 
determine whether there are more efficient methods of moving the 
traveling public through the system.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                    Vice Admiral Peter V. Neffenger
The need to complete mandates of the Implementing Recommendations of 
        the 9/11 Commission Act

    Question 1. In 2007, Congress passed the Implementing 
Recommendations of the 9/11 Commission Act (P.L. 110-53)--measures the 
9/11 Commission urged Congress to adopt to ensure greater security. 
That legislation requires TSA to create a regulatory framework that 
addresses the threats facing our passenger and freight rail systems and 
transit agencies. Among other things, the legislation directs TSA to:

  <bullet> Approve security plans for all railroads that are considered 
        vulnerable, high-risk targets for a terrorist attack (Section 
        1512);

  <bullet> Issue regulations that establish training standards on 
        potential security threats and conditions for frontline 
        employees at public transportation agencies, railroads and bus 
        providers (Sections 1408, 1517 and 1534); and

  <bullet> Provide a framework for conducting name-based security 
        background checks and immigration status checks on all 
        frontline employees at public transportation agencies and 
        railroads (Sections 1411, 1520 and 1522).

    The legislation was enacted in August 2007 and these items were all 
due within one year of that date. Yet as of May 2015--approaching eight 
year since the deadline--we still do not have final action on these 
requirements. Failure to complete all the mandates of the legislation 
raises questions about attention to urgent priorities and whether we 
are prepared for any and all emerging threats on the horizon.
    Vice Admiral Neffenger, after this committee's March hearing on the 
TSA, I asked TSA in a Question for the Record when the mandates would 
be met. I did not receive any sort of concrete response--just broad 
statements that the mandates were being addressed.
    If you're confirmed, when will they ALL be completed?
    Answer. If confirmed for this position, I will ensure that TSA 
responds to you with their best estimate as to the timeline for meeting 
the requirements of Public Law 110-53--specifically, the Sections noted 
above.
Status of the Transportation Security Acquisition Reform Act

    Question 2. Last year, Congress passed the Transportation Security 
Acquisition Reform Act (P.L. 113-245), which requires TSA to ``to 
implement best practices and improve transparency with regard to 
technology acquisition programs,'' including development of a five-year 
investment plan in consultation with industry.
    I co-sponsored that measure in the Senate in order to ensure a 
better acquisition and procurement process at the TSA.
    Vice Admiral Neffenger, if confirmed, what attention will you put 
toward carrying out this legislation?
    Answer. If confirmed, I will closely examine TSA's acquisition 
programs to ensure compliance with law, policy and best practices. I 
serve as the Component Acquisition Executive in my current role as Vice 
Commandant of the Coast Guard, and I have been directly involved in the 
reform of the Coast Guard acquisition program over the past decade. I 
understand how critical a sound, defensible and responsive acquisition 
program is to mission results. It requires strong controls and 
oversight; a rigorous requirements generation process; project 
management and sponsor separation; strict adherence to DHS and Federal 
rules and policies; and a continual, honest assessment of value, 
effectiveness and efficiency. If confirmed, I will apply my experience 
in acquisition oversight to TSA.

    Question 3. If confirmed, how will you ensure TSA is engaging with 
industry to develop a five-year investment plan?
    Answer. Strong industry partnerships linked to a robust agency 
requirements generation process are key to fielding effective 
technologies. If confirmed, I will meet with current equipment 
suppliers and engage with industry groups and will incorporate their 
expertise and input into a long-term investment plan.

    Question 4. If confirmed, how will you ensure TSA is working to 
expedite the approval process for next-generation security 
technologies?
    Answer. A transparent, defensible and well-understood acquisition 
approval process underpins an effective and responsive acquisition 
program. If confirmed, I will ensure a complete review of TSA's current 
processes and will adjust these as needed to ensure that they are 
transparent, defensible, in compliance with law and policy, and that 
they have strong oversight controls.

                                  [all]
                                  
                                  
</pre></body></html>
